<html>
<title> - THE ROLE OF THE DEPARTMENT OF HOMELAND SECURITY IN GULF COAST REBUILDING AND RECOVERY EFFORTS</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]



                     THE ROLE OF THE DEPARTMENT OF
    HOMELAND SECURITY IN GULF COAST REBUILDING AND RECOVERY EFFORTS

=======================================================================

                              FULL HEARING

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 22, 2007

                               __________

                           Serial No. 110-39

                               __________

       Printed for the use of the Committee on Homeland Security
                                     
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


                                     

  Available via the World Wide Web: http://www.gpoaccess.go/congress/
                               index.html

                               __________







                  U.S. GOVERNMENT PRINTING OFFICE
48-914 PDF                WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office  Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, 
Washington, DC 20402-0001






                     COMMITTEE ON HOMELAND SECURITY

 BENNIE G. THOMPSON, Mississippi, 
             Chairman

PETER T. KING, New York              LORETTA SANCHEZ, California,
LAMAR SMITH, Texas                   EDWARD J. MARKEY, Massachusetts
CHRISTOPHER SHAYS, Connecticut       NORMAN D. DICKS, Washington
MARK E. SOUDER, Indiana              JANE HARMAN, California
TOM DAVIS, Virginia                  PETER A. DeFAZIO, Oregon
DANIEL E. LUNGREN, California        NITA M. LOWEY, New York
MIKE ROGERS, Alabama                 ELEANOR HOLMES NORTON, District of 
BOBBY JINDAL, Louisiana              Columbia
DAVID G. REICHERT, Washington        ZOE LOFGREN, California
MICHAEL T. McCAUL, Texas             SHEILA JACKSON-LEE, Texas
CHARLES W. DENT, Pennsylvania        DONNA M. CHRISTENSEN, U.S. Virgin 
GINNY BROWN-WAITE, Florida           Islands
MARSHA BLACKBURN, Tennessee          BOB ETHERIDGE, North Carolina
GUS M. BILIRAKIS, Florida            JAMES R. LANGEVIN, Rhode Island
DAVID DAVIS, Tennessee               HENRY CUELLAR, Texas
                                     CHRISTOPHER P. CARNEY, 
                                     Pennsylvania
                                     YVETTE D. CLARKE, New York
                                     AL GREEN, Texas
                                     ED PERLMUTTER, Colorado

 Jessica Herrera-Flanigan, Staff 
    Director & General Counsel
   Rosaline Cohen, Chief Counsel
   Michael Twinchek, Chief Clerk
 Robert O'Connor, Minority Staff 
             Director

                                  (ii)










                            C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Chairman, Committee on 
  Homeland Security
  Oral Statement.................................................     1
  Prepared Statement.............................................     2
The Honorable Peter T. King, a Representative in Congress From 
  the State of New York, Ranking Member, Committee on Homeland 
  Security.......................................................    48
The Honorable Christopher P. Carney, a Representative in Congress 
  From the State of Pennsylvania.................................    43
The Honorable Donna M. Christensen, a Representative in Congress 
  From the U.S. Virgin Islands...................................    50
The Honorable Charles W. Dent, a Representative in Congress From 
  the State of Pennsylvania......................................    37
The Honorable Bob Etheridge, a Representative in Congress From 
  the State of North Carolina....................................    38
The Honorable Al Green, a Representative in Congress From the 
  State of Texas.................................................    46
The Honorable Bobby Jindal, a Representative in Congress From the 
  State Louisiana................................................    59
The Honorable Sheila Jackson Lee, a Representative in Congress 
  From the State of Texas........................................    52
The Honorable Nita M. Lowey, a Representative in Congress From 
  the State of New York..........................................    48
The Honorable David G. Reichert, a Representative in Congress 
  From the State of Washington...................................    42
The Honorable Ginny Brown-Waite, a Representative in Congress 
  From the State of Florida......................................     3

                               Witnesses

Ms. Lezli Baskerville, Esq., President and CO, National 
  Association for Equal Opportunity in Higher Education:
  Oral Statement.................................................    17
  Prepared Statement.............................................    19
Mr. John J. Castellani, President, Business Roundtable:
  Oral Statement.................................................     4
  Prepared Staement..............................................     6
Mr. Jeff Johnson, President and CEO, Truth is Power:
  Oral Statement.................................................    32
  Prepared Statement.............................................    33
Mr. Bryan McDonald, Director, Office of Recovery and Renewal, 
  State of Mississippi:
  Oral Statement.................................................    25
  Prepared Statement.............................................    27

                                Appendix

Additional Questions and Responses:
  Responses from Mr. John J. Castellani..........................    63
  Responses from Mr. Bryan McDonald..............................    65

 
                    THE ROLE OF THE DEPARTMENT OF
    HOMELAND SECURITY IN GULF COAST REBUILDING AND RECOVERY EFFORTS

                              ----------                              


                         Tuesday, May 22, 2007

                     U.S. House of Representatives,
                            Committee on Homeland Security,
                                                    Washington, DC.
    The committee met, pursuant to call, at 10:10 a.m., in room 
311, Cannon House Office Building, Hon. Bennie G. Thompson 
[chairman of the committee] presiding.
    Present: Representatives Thompson, DeFazio, Lowey, Jackson 
Lee, Christensen, Etheridge, Carney, Clarke, Green, Perlmutter, 
King, Lungren, Jindal, Reichert, McCaul, Dent and Brown-Waite.
    Chairman Thompson. The committee is meeting today to 
receive testimony on the role of Department of Homeland 
Security in the gulf coast rebuilding and recovery efforts.
    We are quickly approaching the 2-year anniversary of the 
Hurricane Katrina, and it has been over a year since Congress 
authorized the bulk of its rebuilding aid for the region. The 
status of the affected gulf coast region is not encouraging. 
More than 350,000 homes were destroyed and another 140,000 or 
so sustained major damage, primarily in Alabama, Louisiana, and 
Mississippi. By one estimate, more than a million homes were 
damaged in Katrina, Rita, and Wilma.
    In New Orleans alone, the U.S. Corps of Engineers executed 
an average of 360 residential demolitions a month in 2006 but, 
in 2007, to date is still executing an average of 150 a month. 
As of July1, 2006, the U.S. Bureau of Census estimated only 
that about three-quarters of the pre-storm population has been 
restored to the New Orleans metropolitan region. School 
enrollment has continued to be far below storm levels. Public 
transportation recovery has been limited, with less than half 
of all routes open in New Orleans and less than one in five 
pre-Katrina busses operational. The labor force is only three-
quarters of pre-storm levels in the New Orleans metro area.
    Many problems remain in the region, and for that reason, 
there is much work left to be done.
    The Federal Government's response to Katrina varied. The 
Federal Emergency Management Agency provided housing, rentals 
and trailers to more than 700,000 persons, though only one-
fifth of the trailers requested by Orleans Parish was provided. 
FEMA also furnished hotel rooms through February 7th, 2006, for 
some of the new homeless.
    In early September of 2005, Congress authorized 62,000 and 
$3 billion for Katrina and Rita victim assistance.
    There have been numerous and bitter criticisms of the 
Federal response. In one of the most sobering ones, the 
Government Accountability Office said that Federal programs 
were in some ways flexible but sometimes not well coordinated 
and were not well coordinated with State governments.
    Non-governmental organizations responded promptly to 
citizens impacted by Katrina. The American Red Cross, Southern 
Baptist Convention, Salvation Army, Common Ground Collective 
and a number of others provided victims with food and water, 
raising more than $4 billion in donations from the public.
    There are a number of other people who have participated in 
that, and so we will continue to include them in the record, 
but we have a number of witnesses here today who will give 
testimony to what is happening in the area. I am confident that 
they will share with us their experience and look forward to 
their testimony.

   Prepared Statement of the Honorable Bennie G. Thompson, Chairman, 
                     Committee on Homeland Security

    We are quickly approaching the tow year anniversary of Hurricane 
Katrina and it has been over a year since Congress authorized the bulk 
of its rebuilding aid for the region.
    The status of the affected Gulf Coast region is not encouraging. 
More than 350,000 homes were destroyed, and another 140,000 or so 
sustained major damage, primarily in Alabama, Louisiana, and 
Mississippi. By one estimate, more than a million homes were damaged in 
Katrina, Rita, and Wilma.
    In New Orleans alone, the U.S. Army Corps of Engineers executed an 
average of 360 residential demolitions a month in 2006, but in 2007 to 
date it still is executing an average of 150 a month. as of July 1, 
2006, the U.S. Bureau of the Census estimated only about three-quarters 
of the pre-storm population had been restored to the New Orleans 
metropolitan region. School enrollment has continued to be far below 
before-storm levels. Public transportation recovery has been limited, 
with less than half of all routes open in New Orleans and less than one 
in five pre-Katrina buses operational. The labor force is only three-
quarters of pre-storm levels in the New Orleans metro area. Many 
problems remain in the region and for that reason there is much work 
left to be done.
    The Federal Government's response to Katrina varied. The Federal 
Emergency Management Agency provided housing--in rentals and trailers--
to more than 700,000 persons, though only one-fifth of the trailers 
requested for Orleans Parish were supplied. FEMA also furnished hotel 
room through February 7, 2006 for some of the newly homeless. In early 
September of 2005, Congress authorized $62.3 billion for Katrina and 
Rita victim assistance.
    There have been numerous and bitter criticisms of the Federal 
response. In one the most sober ones, the Government Accountability 
Office said that Federal programs were in some ways flexible, but were 
sometimes not well-coordinated, and were not well-coordinated with 
State Governments.
    Non-governmental organizations responded promptly to citizens 
impacted by Katrina.
    The American Red Cross, Southern Baptist Association, Salvation 
Army, Oxfam, Common Ground Collective, and a number of others provided 
victims with food and water, raising more than $4 billion in donations 
from the public.
    The Amateur Radio Emergency Services provided emergency 
communications for all levels of Government officials. Many 
corporations provided additional donations and direct service. 
Significantly, the Salvation Army immediately mobilized 178 feeding 
units and 11 field kitchens to serve more than 5.7 million hot meals 
and 8.3 million sandwiches and associated snacks and drinks.
    The Katrina rebuilding process presents an earnest opportunity to 
set partisan politics aside and work towards real solutions for the 
hurricane victims. Nineteen months later, it is high time to provide 
the attention necessary to Katrina.
    This Congress has been working diligently to provide legislative 
solutions to address the needs of the Gulf Coast residents. 
Congresswoman Lofgren and I have discussed how a Civilian Conservation 
Corps is needed for the Gulf Coast at this stage of recovery.
    I grew up on a street that was created as a result of the WPA, just 
like millions of other Americans. The CCC was critical to building our 
nation during the New Deal. We need something similar for the Gulf 
Coast region.
    I am confident that the Department, through the Office of the 
Federal Coordinator for Gulf Coast Rebuilding should serve as the lead 
facilitator for a Civilian Disaster Recovery Corps.
    If we continue to develop public-private partnerships and recognize 
the critical role played by state and local governments, the Gulf Coast 
will recover. The Gulf Coast will be rebuilt. The Gulf Coast will be 
revitalized. And Gulf Coast residents will return.

    Mr. Thompson. The Chair now recognizes the ranking member, 
Ms. Brown-Waite, of the committee for 5 minutes for an opening 
statement.
    Ms. Brown-Waite. I thank the chairman very much, and I 
certainly thank the witnesses here today.
    It has been nearly 21 months since Hurricane Katrina 
wreaked havoc on the gulf coast of our country. The destruction 
was catastrophic, and many lives and families were torn apart. 
In the aftermath of one of the most severe and costliest 
disasters in our country, Congress acted quickly to address the 
devastation and to assist the victims of Katrina. To date, 
Congress has appropriated nearly $118 billion for disaster 
recovery and rebuilding, more money than has ever been 
appropriated for a natural or man-made disaster, including the 
terrorist attacks of 9/11 and the devastating Northridge 
Earthquake in California in 1994.
    Understanding the enormity and severity of the devastation 
to the region and the consequences to the Nation, President 
Bush directed the establishment of a coordinator of Federal 
support for the recovery and rebuilding of the gulf coast 
region within the Department of Homeland Security. The Federal 
coordinator promotes and facilitates the Federal Government's 
role in providing effective, integrated and fiscally 
responsible support from across the Federal Government and 
relevant stakeholders, including State and local governments, 
the private sector, and community organizations in the recovery 
of the gulf coast region. The Federal coordinator works closely 
with the States and local governments to identify and 
prioritize the needs of the region and service as the region's 
liaison to the leadership in Washington.
    There certainly is no denial that the pace of recovery in 
the gulf coast region has been going slow. A lot of assistance 
appropriated by Congress is caught in the bureaucratic red tape 
delaying the rebuilding and recovery efforts.
    While the State and local government of Louisiana and 
Mississippi are tirelessly focusing on the rebuilding of their 
regions, they also are in direct contact with the Federal 
Government which is working to address their needs. The Federal 
Government must continue to facilitate the difficult rebuilding 
process and work to identify and remedy the bureaucratic 
hurdles preventing a faster pace of recovery. The Federal 
Government must also continue to be a steadfast partner in 
promoting the ideas and solutions of the private sector and the 
many community organizations vested in this process.
    I personally want to thank all of the witnesses for being 
here today, and I also want to highlight the fine job that the 
State of Mississippi is doing through its Office of Recovery 
and Renewal under the leadership of Governor Haley Barbour.
    It is my hope that Mississippi and Louisiana are not only 
working with the Federal Government and outside groups but that 
they also are working with each other on common issues and 
joint goals for the region.
    Coming from Florida as I do, we have had far too much 
experience with hurricanes and the devastation that followed 
the hurricanes. Every Floridian who saw the devastation on TV 
that was happening as a result of Hurricane Katrina, their 
hearts went out. They opened up their wallets, because they 
know there but for the grace of God could have been also the 
State of Florida.
    I look forward to hearing the testimony of all of our 
witnesses, and I yield back the balance of my time.
    Chairman Thompson. Thank you very much.
    Other members of the committee are reminded that, per 
committee rules, opening statements may be submitted for the 
record.
    Chairman Thompson. I would like to welcome our witnesses 
here today.
    Our first witness, Mr. John Castellani, is President of the 
Business Roundtable, an association of chief executive officers 
of leading U.S. corporations.
    Our second witness, Ms. Lezli Baskerville, is the first 
female President and CEO of the National Association of Equal 
Opportunity in Higher Education, NAFEO, the only national 
membership advocacy and capacity building association for all 
of the Nation's 105 Historically Black Colleges and 
Universities and emerging Predominantly Black Institutions.
    Our third witness, Mr. Bryan McDonald, is the Director of 
the Mississippi Governor's Office of Recovery and Renewal. He 
leads the team charge coordinating the State's Katrina recovery 
efforts.
    Our fourth witness, Mr. Jeff Johnson, is a correspondent 
for Black Entertainment Television and social activist. He also 
serves as the President and CEO for Truth is Power, which 
specializes in leadership and curriculum development, media 
strategy, and social branding.
    We would like to welcome each of you here to this committee 
meeting.
    Without objection, the witnesses' full statements will be 
inserted in the record.
    Chairman Thompson. I now ask each witness to summarize his 
or her statement for 5 minutes, beginning with Mr. Castellani.

STATEMENT OF JOHN J. CASTELLANI, PRESIDENT, BUSINESS ROUNDTABLE

    Mr. Castellani. Thank you, Mr. Chairman, members of the 
committee.
    On behalf of the Business Roundtable and our members, I 
would like to thank the committee for this opportunity to talk 
with you today about the Gulf Coast Workforce Development 
Initiative and the GREAT campaign.
    The Business Roundtable, as the chairman said, is an 
association of chief executive officers of the leading U.S. 
companies; and collectively they represent over $4.5 trillion 
dollars in annual revenues and employ more than 10 million 
people.
    We are committed to advocating public policies that ensure 
vigorous economic growth, a dynamic global economy and a well-
trained and productive U.S. workforce that is essential for 
future competitiveness. That focus on our national economy, an 
ability to identify major problems that require a broad 
coalition to solve and a willingness to lead, resulted in the 
decisions to establish two programs that have helped the gulf 
region following the devastating hurricanes in 2005.
    I wanted to first mention our Partnership for Disaster 
Response Task Force, which is working to improve and coordinate 
the private sector response to catastrophes. We launched the 
partnership in May of 2005 following the tsunami in Indonesia, 
and it was a great help in responding to Hurricanes Katrina and 
Rita later that year.
    But the Roundtable CEOs saw another ongoing need during the 
efforts to rebuild the gulf coast region. Despite the 
unprecedented national response to the devastation of the 
hurricanes, it was clear that the gulf coast needed a 
significant number of additional construction workers to 
support reconstruction.
    We developed the Gulf Coast Workforce Development 
Initiative to recruit and train up to 20,000 new construction 
craft workers for the gulf coast region by the end of 2009. 
Business Roundtable companies and affiliated partners have 
committed up to $5 million in cash and in-kind services to fund 
the initiative, and this is in addition to the more than $360 
million in cash and in-kind donations that Roundtable companies 
contributed to support immediate relief efforts for the 
hurricanes.
    Participant enroll in a free skills course which provides 
intensive training to prepare them for entry level construction 
jobs and helps them develop a career in the construction 
industry. They receive free training on topics such as basic 
safety, hand tools, power tools, blueprint reading and basic 
rigging. Currently, the training courses are offered at local 
community and technical schools and other facilities in 
Louisiana, Mississippi, and Texas; and we are looking to expand 
into other States.
    Now, let me emphasize that this initiative for possible 
actions in the gulf coast is really a true partnership that 
involves Federal, State and local government agencies, 
businesses, community organizations, educational institutions 
and construction trade groups and associations.
    The U.S. Department of Labor has been an important partner 
in this effort, as have both Louisiana and Mississippi, and 
received funds through the Pathways to Construction Program and 
the National Emergency Grants.
    We have also worked closely with the Office of Federal 
Coordinator for Gulf Coast Rebuilding, the State legislators, 
the Governor's offices and the numerous State agencies in 
Louisiana and Mississippi.
    The success of the Gulf Coast Workforce Development 
Initiative is due to the support of a large number of active 
partners from the public and private sectors. We are also 
working hard to attract people to the available construction 
training classes. The initiative has developed the Gulf Rebuild 
Education Achievement and Training, or GREAT, campaign to raise 
awareness of the training and to recruit participants.
    The Initiative has a Web site that contains information 
about the Initiative and how to sign up for training.
    The Initiative also operates a 24/7 toll-free call center 
for detailed information and assistance in signing up for 
upcoming training classes.
    Marketing has also included print ads, billboards, job 
fairs, community events, and radio advertisements; and we are 
working hard to spread the word about this training.
    We are also excited about the progress since the Gulf Coast 
Workforce Initiative was announced last summer. By the end of 
April, the Initiative has trained more than 5,000 workers in 
needed construction skills; and, in addition, 3,500 are 
currently enrolled in programs in Mississippi, Louisiana and 
recently established courses in Texas.
    We know the training is only the first step, and the 
Initiative has been working hard to reach out to local 
contractors in the gulf coast region to assist job placement 
trainees when they finish the program.
    I am pleased to tell you that the State agencies in 
Louisiana and Mississippi are reporting an average job 
placement rate of 80 percent for Initiative-trained graduates, 
and I must tell you that it is exciting to see that the 
training and career opportunities provided by the Initiative 
have positively impacted the lives of many gulf coast residents 
by giving them jobs and hope.
    I thank you again for the opportunity to talk with you 
about the Gulf Coast Workforce Development Initiative and our 
great campaign.
    Chairman Thompson. Thank you for your testimony.
    [The statement of Mr. Castellani follows:]

                Prepared Statement of John J. Castellani

Introduction
    On behalf of Business Roundtable and our members, I would like to 
thank the committee for this opportunity today to talk with you about 
the Gulf Coast Workforce Development Initiative and GREAT campaign.
    Business Roundtable is an association of chief executive officers 
of leading U.S. companies with over $4.5 trillion in annual revenues 
and more than 10 million employees. Our companies comprise nearly a 
third of the total value of the U.S. stock market and represent more 
than 40 percent of all corporate income taxes paid. Collectively, they 
returned more than $112 billion in dividends to shareholders and the 
economy in 2005.
    Roundtable companies give more than $7 billion a year in combined 
charitable contributions, representing nearly 60 percent of total 
corporate giving. They are technology innovation leaders, with $90 
billion in annual research and development spending--nearly half of the 
total private R&D spending in the U.S.
    The Roundtable is committed to advocating public policies that 
ensure vigorous economic growth, a dynamic global economy, and the 
well-trained and productive U.S. workforce essential for future 
competitiveness. Our CEO members focus on issues they believe will have 
an effect on the economic well-being of the nation.
    It's that focus on our national economy, an ability to identify 
major problems that require a broad coalition to solve and a 
willingness to lead that resulted in the decisions to establish two 
programs that have helped the Gulf Region following the devastating 
hurricanes in 2005.
    I first want to mention the Business Roundtable Partnership for 
Disaster Response Task Force, which seeks to improve and coordinate the 
private sector response to catastrophes. We launched this effort in May 
of 2005 following the devastating tsunami in Asia and the private 
sector?s unprecedented outpouring of contributions.
    Nearly 30 CEOs--from across industries--have joined forces as 
members of the Partnership for Disaster Response Task Force to leverage 
their resources and expertise to enhance and accelerate on-the-ground 
relief and recovery efforts following major disasters. Business 
Roundtable is working closely with the federal government as well as 
the American Red Cross and others to ensure that the private sector is 
fully integrated into the nation?s disaster response planning. The new 
chairman of this Task Force is Richard L. Keyser, Chairman and CEO of 
W.W. Grainger, Inc.
    The Partnership has proven to be a great resource to help 
Roundtable companies respond to catastrophes, including support in 
response to the South Asian earthquake and the Central American and 
Mexico Hurricane Relief Fund. Additionally, Roundtable companies 
contributed more than $360 million in cash and in-kind donations to 
support immediate relief efforts for Hurricanes Katrina and Rita--
donations ranging from antibiotics to vehicles.
    The Partnership for Disaster Response dealt with the needs in the 
immediate aftermath of Hurricane Katrina and Hurricane Rita, but our 
CEOs also saw an ongoing--and unmet--need during the efforts to rebuild 
the region. Despite the extremely generous national response to the 
devastation of the hurricanes, it was clear in the months that followed 
that the Gulf Coast region needed a significant number of additional 
trained construction workers to support reconstruction.

Overview of the Gulf Coast Workforce Development Initiative
    Under the leadership of Riley Bechtel, Chairman and CEO of Bechtel 
Group, Inc., and Charles Holliday, Jr., Chairman and CEO of DuPont, we 
have developed--and launched--the Gulf Coast Workforce Development 
Initiative. Our goal for this Initiative is to recruit and train up to 
20,000 new construction craft workers for the Gulf Coast region by the 
end of 2009. Business Roundtable companies and affiliated partners are 
committing up to $5 million in cash and in-kind services to fund the 
Initiative.
    The Initiative supplements ongoing efforts in both the public and 
private sectors to develop the skilled workforce needed to help the 
Gulf Coast region rebuild following the devastation of the 2005 
hurricane season.
    Participants enroll in a free skills course which provides 
intensive training to prepare them for construction jobs and help them 
develop a career in the construction industry. They receive free entry-
level training on topics such as basic safety, hand tools, power tools, 
blueprint reading and basic rigging.
    In most cases, participants are trained in local community and 
technical colleges by instructors certified by the National Center for 
Construction Education and Research (NCCER). New worker training is 
also being provided under the approved apprenticeship programs of the 
Building and Construction Trades. To be eligible for training, a 
participant must be a legal U.S. resident and take a basic skills 
assessment evaluation.
    Free training courses are offered at local community and technical 
colleges and other facilities in Louisiana, Mississippi, and Texas--and 
we?re looking to expand to other states.

A Partnership_with Many Partners
    Let me emphasize that this initiative for positive action in the 
Gulf Coast is a true partnership involving federal, state and local 
government agencies, businesses, community organizations, educational 
institutions, and construction trade groups and associations.
    The U.S. Department of Labor has been an important partner in this 
effort, as both Louisiana and Mississippi have received funding made 
available through the U.S. Department of Labor?s Pathways to 
Construction program and National Emergency Grants. We have also worked 
closely with the Office of the Federal Coordinator for Gulf Coast 
Rebuilding.
    The success of the Gulf Coast Workforce Development Initiative is 
due to the support of a large number of active partners from the public 
and private sectors. These include the governor's offices and other 
agencies in Louisiana and Mississippi as well as state legislatures 
that have allocated important funding for job training programs.
    Other partners include the Louisiana Community and Technical 
College System, National Center for Construction Education and Research 
(NCCER), the Associated Builders and Contractors Inc., Associated 
General Contractors (AGC) of America, Building and Construction Trades 
Department, AFL-CIO; Construction & Maintenance Education Fund, 
Construction Industry Roundtable (CIRT), Construction Users Roundtable 
(CURT), Home Builders Institute, Houston Business Roundtable, Houston 
Community College System, Lake Area Industry Alliance, Louisiana 
Chemical Association, American Association of Community Colleges, Bosch 
Tool Corporation, Greater Baton Rouge Industry Alliance, Greater New 
Orleans Business Roundtable, Greater New Orleans Inc., Minority 
Business Roundtable, Mississippi Construction Education Foundation, 
NAACP, National Black Chamber of Commerce and National Roofing 
Contractors Association.

``I'm GREAT'' Marketing and Recruitment Program
    The establishment of training with partner organizations has been 
an important first step, but we also are working hard to attract people 
to the available construction training classes. The Initiative has 
developed the Gulf Rebuild: Education, Advancement & Training or 
``GREAT marketing campaign which seeks to associate participation in 
the Gulf Coast reconstruction with a personal sense of self worth and 
accomplishment.
    The Initiative maintains a website (www.imgreat.org) which contains 
information about the Initiative and how to sign up for training. 
Interested persons are directed to call the Initiative's 24-7 toll free 
call center (1-888-52-GREAT) for detailed information and assistance in 
signing up for upcoming training classes. The Initiative?s marketing 
has included a number of outreach methods including print ads, 
billboards, job fairs, community events and radio advertisements.

Rebuilding Lives: Progress to Date
    We're excited about the progress since the Gulf Coast Workforce 
Development Initiative was announced last summer.
    By the end of April 2007, the Initiative had trained more than 
5,000 workers in needed construction skills. In addition, another 3,500 
are currently enrolled in programs in Mississippi, Louisiana and 
recently established courses in Texas.
    We know that training is only the first step, and the Initiative 
has been working hard to reach out to local contractors in the Gulf 
Region to assist with job placement for the trainees when they finish 
the program. I am pleased to tell you that state agencies in Louisiana 
and Mississippi are reporting an average job placement rate of 80 
percent for Initiative trained graduates.
    It has been exciting to see that the training and career 
opportunities provided by the Initiative have positively impacted the 
lives of many Gulf Coast residents.
    Shawn, a construction training graduate, had this to say about his 
experience: ``Before starting training. . .I was unemployed and was 
having a hard time finding a good job. I completed training in a short 
time; I didn?t have to stay in school half my life to start a good 
career. I attended a job fair at the school and found a job. . .I'm 
also currently attending welding training at night. . and still have 
time to spend with my family. It?s really is true that you can get 
started in a good job with a little training and continue move up in 
the construction field. I?ve referred family members and friends to 
this program; I want them to have a chance to make a good living too.''

Conclusion
    Thank you again for this opportunity to talk with you about the 
Gulf Coast Workforce Development Initiative and our GREAT campaign. 
Working together--business, labor, government, education and many 
others--we will help the Gulf Coast region's structures, economy and 
spirit.

                              Attachments:


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Chairman Thompson. I now recognize Ms. Baskerville to 
summarize her statement for 5 minutes.

   STATEMENT OF LEZLI BASKERVILLE, ESQ., PRESIDENT AND CEO, 
 NATIONAL ASSOCIATION FOR EQUAL OPPORTUNITY IN HIGHER EDUCATION

    Ms. Baskerville. Thank you very much, Mr. Chairman and 
Ranking Member Congresswoman Brown-Waite, members of the 
committee.
    It is my distinct privilege to be here this morning on 
behalf of the Nation's Historically and Predominantly Black 
Colleges and Universities. I am honored to serve at the helm of 
NAFEO, which serves as the capacity building and capital 
building association for all of the Nation's black colleges, 2-
year and 4-year Historically and Predominantly Black Colleges 
and Universities.
    I am especially pleased to be here today with such a 
diverse panel of witnesses. I am glad to note by the presence 
of someone from government and someone from business and 
someone from media and the not-for-profit arena that there is a 
recognition by the committee of the interconnectiveness between 
our various vantages and what we have to bring today.
    When Katrina hit NAFEO-member institutions, the Nation's 
Historically and Predominantly Black Colleges and Universities 
were hit in a particularly devastating manner. In the belly of 
the beast, we had Xavier, Dillard and SUNO, three of the 
Nation's premier Historically Black Colleges and Universities 
that collectively send more African American students on to 
medical school then any other institutions in the Nation, send 
more African Americans on to graduate and professional programs 
in science and technology than any other institutions in the 
Nation, send more nurses into the workforce in and around the 
region than any other institutions, prepare teachers in urban 
teaching, a unique discipline offered at SUNO.
    Our institutions were doing a great deal, as you can see 
and as I expanded in my written testimony, not only to provide 
in meeting vitally needed services and needs in and around the 
gulf coast but nationally.
    When Hurricane Katrina hit, our institutions lost 
everything, lost laboratories, dormitories, libraries, faculty, 
administrators, and the like. Particularly devastating was the 
fact that faculty were displaced. Our faculty, who are far and 
few African Americans, faculty who are disproportionately 
underrepresented in the higher education arena.
    But amidst the storm, as our institutions in the belly of 
the beast in Mississippi, in Louisiana were experiencing 
devastation, some great things happened that I think can be 
instructive and helpful as we go forward.
    First, under NAFEO's leadership, every member of the black 
college community, all 105 Historically Black Colleges and 
Universities and Predominantly Black Institutions, joined in an 
effort first to receive students and then, second, to enlist 
their institutions, the students faculty administrators in the 
recovery efforts.
    Of particular note is an effort that happened almost 
instinctively by students that I hope will be instructive to 
this body as you look forward and think about how Homeland 
Security can play a more direct and immediate effort. Students 
came forward and organized many efforts to engage in recovery 
efforts, and they can play a critical effort going forward.
    Mindful of my time, I won't discuss those efforts, but I 
will say that Homeland Security, in our estimation, has been 
lacking in its response, but the Historically and Predominantly 
Black Colleges want to work with them. We want to offer them an 
opportunity to use our resources, our researchers, our 
laboratories, our students and all in the higher ed community 
to respond.
    I have five particular recommendations that are outlined in 
my testimony.
    Quickly, one is that, following precedent, we would ask 
that you would require that a percentage of the laboratory and 
research facilities investment in the Homeland Security go to 
building and strengthening the laboratories and research 
facilities on HBCU campuses.
    second, I would request that you require that a percentage 
of the scientific and technological resources invested in the 
Homeland Security research agencies provide Federal, State, and 
local officials with the technology and capabilities to protect 
the homeland and set aside some of those funds for HBCU.
    third, that you designate one of the Nation's Homeland 
Security Centers of Excellence designating HBCU as such. We 
have the basis for meeting all of our homeland security needs; 
and with targeted investments in these national resources, in 
these national treasures, we will enable our institution, our 
country, to restore itself to its vibrancy.
    I also ask that you consider designing a program that is 
based on the volunteer efforts of our students, a program that 
would reward students and provide incentives for students to go 
to our campuses to play a vitally important role in the 
rebuilding effort.
    There is a member of your staff, Ms. Angela Rye, who led 
that effort for NAFEO; and I think she can be helpful in 
helping the committee to think through and shape what that 
might look like.
    And, finally, I would request that the committee suggest 
that we invest in HBCUs and designate them as disaster-
resistant Universities, that they provide the services and 
resources to train those in the communities. They are unlikely 
situated in the belly of the beast. They are unlikely situated 
on the front lines. They are in all of the areas that are most 
prone to disasters, and I would urge you to respectfully 
consider involving HBCUs in these matters.
    I thank you so very much, and I look forward to answering 
any questions that you may have at the appropriate time.
    Chairman Thompson. Thank you very much for your testimony.
    [The statement of Ms. Baskerville follows:]

                Prepared Statement of Lezli Baskerville

    Chairman Thompson, Ranking Member King and Members of the 
Committee, thank you for affording me the opportunity to appear before 
you today on behalf of the National Association for Equal Opportunity 
in Higher Education (NAFEO), to testify about ``The Role of the 
Department of Homeland Security in Gulf Coast Rebuilding and Recovery 
Efforts,'' a subject about which NAFEO can offer the unique perspective 
of the Historically Black Colleges and Universities in the Gulf Coast 
region and nationally.
    NAFEO is the nation's only membership association of all of the 
two-year, four-year, public and private Historically Black Colleges and 
Universities (HBCUs) and Predominantly Black Institutions (PBIs), 
representing almost 800,000 students, nearly 53,000 faculty and more 
than 5 million alumni. NAFEO's more than 120 member institutions are 
located in twenty-five states, the District of Columbia and the Virgin 
Islands.
    Since it was founded in 1969, NAFEO has been at the forefront of 
shaping federal and state legislation to preserve and enhance HBCUs and 
PBIs, expand college access and success. It has helped to build the 
capacity of HBCUs, their executives, administrators, faculty, staff and 
students; and it has served as an advocate for the preservation and 
enhancement of HBCUs, as a voice for blacks in higher education, and 
for education excellence, equity, access and success, especially for 
those of least advantage and those traditionally underrepresented in 
higher education.
    Much has been said and written about the Department of Homeland 
Security's role in the Gulf Coast rebuilding and recovery efforts. The 
Department's role is vitally important because it is responsible for 
anticipating, preempting and deterring threats to the homeland, and 
preparing our nation and communities to respond rapidly and efficiently 
when such threats do materialize. From NAFEO's perspective and that of 
the institutions we represent, the Department has fallen woefully short 
of realizing its potential in the rebuilding and recovery effort. 
Without the support and involvement of HBCUs and PBIs, the Department 
will not be able to realize its potential relative to the Gulf Coast 
rebuilding and recovery efforts. I am pleased to report, however, that 
NAFEO and its member institutions stand ready to assist the Department 
in the recovery and rebuilding efforts in any manner of means.
    When Hurricane Katrina swept in and landed a mighty blow to those 
in the Gulf Coast region, none felt the pang more than Dillard 
University, Southern University at New Orleans and Xavier University, 
three NAFEO institutions located in New Orleans. Hurricane Katrina was 
the most destructive and costly natural disaster in U.S. history. It 
caused unprecedented devastation to these HBCUs as well as other HBCU 
campuses in the region including Alcorn State University, Jackson State 
University and Tougaloo College in Mississippi. At Dillard, SUNO, and 
Xavier, entire campuses, including scores of dormitories, libraries, 
laboratories, and classrooms, were destroyed. Large amounts of 
equipment and furniture, books and supplies, academic records and 
teaching materials were permanently damaged, first by winds, floods and 
poison-filled waters, next by post-hurricane fires, and finally by 
toxic mold and mildew. If You Can Dream It, You Can Achieve It at an 
HBCU!
    Katrina's wrath continues to be felt today, not only by the 
impacted higher education institutions, but the surrounding communities 
as well. Thousands of residents lost employment and access to other 
resources provided by the universities, their students and their 
faculty. Rebuilding these institutions is essential to rebuilding those 
communities. Yet, nearly two years after Katrina, the rebuilding, 
especially in the communities of least advantage and on the campuses of 
the least resourced institutions, has not moved with the alacrity, 
precision, and dispatch one would have hoped or expected.
    Southern University New Orleans, the only public HBCU in New 
Orleans, was hit the hardest of all higher education institutions. 
Katrina decimated SUNO, and the entire campus was destroyed. The 
students who attended SUNO were disproportionately impacted. As a 
commuter campus, located in the Ninth Ward with a non-traditional, 
older student body, many students at SUNO lost everything: their homes 
and all material possessions, a sense of community (faith institutions, 
health and human needs services, recreation facilities, schools for 
their children), and members of their families and friends. As part of 
the1890 land-grant system of institutions, which, like 1862 
traditionally White land-grant institutions, are dubbed ``The People's 
Institutions,'' SUNO should have received swift, targeted public 
investments to restore the campus and reconnect it to the surrounding 
community with as little disruption to the education of ``the people'' 
as possible. This did not and has not yet happened. At the time of this 
hearing, nearly two years after Katrina, SUNO is still operating out of 
trailers, which many of its students and their families also call home. 
The university lacks adequate resources to retain many of its faculty 
whose families fled New Orleans during or post- Katrina, or to attract 
adequate new faculty and staff.
    Hurricane Katrina robbed many HBCU faculty and administrators of 
their homes, their livelihoods, and their families. Many have been 
furloughed, stripped of opportunities to teach, perform research, and 
publish. They are in effect, Missing in Action, but their individual 
stories and needs have gone unnoticed. Fortunately, with the assistance 
of the of the Ford Foundation, in partnership with South Carolina State 
University, NAFEO is beginning to document the challenges and needs of 
the displaced faculty and to take affirmative steps to meet some of 
their immediate needs.
    If Katrina highlighted the tacit inequities of resources for the 
affected institutions, then the experiences of displaced faculty should 
tell a similar story. Recovery efforts aimed at HBCUs emphasized the 
needs of students, rebuilding the physical and technological 
infrastructure, and supporting the presidents through the transition. 
There were few, if any, coordinated efforts to respond to the specific 
needs of faculty, who as scholars, lost research, libraries, and time. 
Around the country, various institutions, both historically white and 
historically black, extended invitations to individual faculty members, 
but there was no coordinated effort to document their experiences or 
monitor how they weathered the transition, and the opportunities, if 
any, that opened up for them. Katrina may represent the worst brain 
drain among African Americans in a region that this country has ever 
experienced. The long-term implications of losing displaced faculty 
have yet to be realized or even considered. This African American 
talent pool exists in an intellectual and physical limbo that is 
displaced and disconnected from the academy. The ongoing recovery and 
rebuilding efforts must take this into account and do something about 
it.

NAFEO's Response
    When the Katrina catastrophe occurred on the 42nd anniversary of 
the March on Washington, at which the Reverend Martin Luther King, Jr. 
pricked the conscience of America and moved the nation to action with 
his riveting ``I Have a Dream Speech,'' government executives and 
individuals, associations, corporations, and foundations sprang into 
action trying to rescue, relocate, offer immediate relief and begin the 
long, trying process of restoring, rebuilding and revitalizing for 
those hardest hit by Katrina.
    As we collectively watched the violent winds and tumultuous waters 
engulf and destroy the city New Orleans and threaten the lives and 
property of hundreds of thousands of residents; and as we caught 
glimpses of the ravages of Katrina in Mississippi and Alabama, the 
Black College community sprang into action. NAFEO mobilized the black 
college community to do five things: (1) assesst the situation and 
gather as much information about the crisis and immediate needs as was 
available; (2) assist Dillard, Xavier, Southern University, New 
Orleans, and as necessary, Alcorn State University, Bishop State 
Community College, Coahoma Community College, Hinds Community College 
at Utica, Jackson State University and Tougaloo College to ensure the 
safety and security of the nearly 24,000 students collectively (9,100 
at Dillard, Southern University New Orleans, and Xavier) who were in 
the eye of the storm; (3) assure that basic essentials were available 
for all of the students: water, food, housing, and medical assistance; 
(4) absorb the 9,100 Dillard, SUNO and Xavier students who could not 
return to their home institutions for at least one semester into Sister 
institutions; and (5) advance the basic human, mechanical and technical 
infrastructures of all our Katrina-shaken institutions.
    The united black college community brought and is continuing to 
bring to bear every resource it can muster, to aid the students, 
executives, administrators, faculty, staff, families and Katrina-
ravaged institutions that are part of the black college community. They 
mobilized and are continuing to work as a united black college 
community on what we perceive to be the most important recovery, 
preservation, and rebuilding effort of our day.
    NAFEO immediately shifted human resources and began identifying 
financial resources for Katrina-impacted HBCUs. We worked with federal 
legislators, corporate and foundation executives to assist the region's 
HBCUs that were most devastated by Katrina --Dillard, Xavier, and SUNO-
-to begin rebounding from $1 billion in damages to those institutions 
caused by flood and fire; and to also assist Alcorn State University, 
Jackson State University, and Tougaloo College, NAFEO institutions in 
neighboring Mississippi that also suffered hurricane-related damage.
    NAFEO initially engaged all of the NAFEO member institutions and 
other equal educational opportunity institutions in an effort to 
receive displaced students on a temporary basis until their home 
institutions could rebound and once again receive the students. This 
effort was remarkably successful. We engaged teams of students from 
among our 120-member institutions in assisting with the clean-up and 
rebuilding efforts following Katrina, as well as in feeding and 
clothing efforts and other projects to meet the immediate health and 
human needs services to those in the region. The students' work is 
ongoing, and they continue to spend their breaks and vacations in New 
Orleans volunteering with the rebuilding efforts.
    With external leadership from NAFEO and internal leadership from 
members of the Louisiana and Mississippi delegations and others, we 
were able to secure four Special Supplemental Appropriations that 
included funds for the HBCUs hit hardest by Katrina and others that 
were damaged. NAFEO's deep and heartfelt appreciation is extended to 
Senator Mary Landrieu, Congressman William Jefferson, Senator Cochran 
and Chairman Bennie Thompson, whose focused congressional leadership 
advanced these appropriations.
    For the first time in its then 37-year history, NAFEO moved its 
National Conference on Blacks in Higher Education out of Washington, DC 
to New Orleans to demonstrate the support of the collective black 
college community for Dillard, SUNO, Xavier, Alcorn State University, 
Jackson State University, and Tougaloo College. Among the important 
outcomes from that convening was the record from a filed hearing co-
hosted by the Congressional Black Caucus and NAFEO, and attended by 
Senator Mary Landrieu (D-LA), Congressman William J. Jefferson (D-2d-
LA) Congressman Bobby Scott (D-3rd-VA), Congresswoman Donna Christensen 
(D-VI) and others, on the impact of Katrina on our institutions and 
communities, and, equally as important, the many and varied ways in 
which our institutions could lead in rebuilding the hurricane-
challenged institutions and communities
    Some federal agencies worked with NAFEO and others to reallocate 
monies already appropriated so they could be channeled to the students, 
faculty, institutions and vulnerable communities uprooted by Katrina. 
Notable among federal agencies that responded in an affirmative and 
effective manner was the U.S. Department of Housing and Urban 
Development (HUD). With leadership from HUD Secretary Alphonso Jackson 
and with the support of Assistant HUD Secretary Dr. Darlene Williams 
and her executive leadership team, the Department shaped a new 
Universities Rebuilding America Program (URAP) which dedicated another 
$5.6 million to involve faculty and students in rebuilding the Gulf: 
$3.6 million of which was dedicated for HBCUs to provide a range of 
sustained services to the effected communities and $2 million of which 
went to collaborative undertakings between the Katrina-Rita-ravaged 
communities and schools of architecture and planning.
    The above and related actions were imperative because the black 
college community is extremely close, and no HBCU stands as an island. 
To the extent that one falters or falls, the others will be weaker as 
will be the African American community and the nation. It is vital, 
therefore, for continued coordinated black college community efforts, 
in partnership with the Department of Homeland Security, to shore up 
Dillard, SUNO, and Xavier and their Sister HBCUs for many reasons, 
especially so that the educational and professional dreams and 
aspirations of the students, administrators, faculty and staff are not 
deferred, and the resources they provide to their service communities 
and the world are not lost.

Best Practices in Rebuilding and Recovery Efforts
    Against the above backdrop highlighting some of the ways NAFEO and 
its member institutions--the entire HBCU community--its students, 
administrators, faculty, staff, alumni and friends; and large numbers 
of others in the higher education phalanx joined forces to assist in 
the recovery, and rebuilding efforts, I offer the following thoughts 
about, ``The Role of the Department of Homeland Security in Gulf Coast 
Rebuilding and Recovery Efforts.''
    I note at the outset that NAFEO is proud and pleased that two of 
``its finest'' are today at the heart of the Katrina rebuilding 
efforts, Lieutenant General Russell Honeree, Commanding General of the 
1st U.S. Army, who is overseeing the Army's efforts in New Orleans is a 
Southern University alumni; and Dr. Norman Frances, the first lay 
President of Xavier University, his alma mater, and the recent 
recipient of the Presidential Medal of Freedom, is co-chair of the 
Louisiana Recovery Authority. Both of these distinguished HBCU alumni 
are bringing to their challenging tasks in the rebuilding efforts, the 
courageous, principled, equitable, focused, strategic determination and 
results oriented approach learned or reinforced at HBCUs.
    Despite the best effort of General Honoree, Dr. Frances, and many 
other brilliant, dedicated, passionate public servants who are working 
indefatigably and creatively to rebuild the Gulf Coast, the Department 
of Homeland Security's effort in rebuilding the Gulf Coast is lacking. 
The mission of the mega-Department, to ``lead the unified national 
effort to secure America. . . .prevent and deter terrorist attacks and 
protect against and respond to threats and hazards to the nation. . . 
.ensure safe and secure borders, welcome lawful immigrants and 
visitors, and promote the free-flow of commerce national network of 
organizations and institutions involved in efforts to secure our 
nation,'' suggests that it is appropriate for the Department to play a 
large role in the rebuilding efforts.
    That the Department of Homeland Security was founded in the 
aftermath of the terrorist attacks of September 11, 2001 suggests an 
appropriate measure of what might be expected post-Katrina and what the 
Department should and must do in the rebuilding efforts going forward.
    As we approach the sixth anniversary of 9/11 and as we near the 
second anniversary of 8/25, the day Hurricane Katrina hit, I urge this 
Committee to use the lessons learned from both 9/11 and Katrina to 
inspire and shape collaborative strategies that will enable the 
Department of Homeland Security to redouble its efforts to rebuild the 
Gulf Coast by engaging the entire HBCU community and other higher 
education institutions as the drivers for the recovery. With a shift in 
Departmental investments in the recovery and rebuilding efforts, these 
institutions can strengthen their human, physical, and technological 
infrastructure, to drive the recovery. The leaders of these 
institutions, their executives faculty, staff, students and alumni 
understand that the rebuilding efforts must not simply be about 
restoring facilities and reclaiming bodies, but also about recapturing 
lost and fallen youth and families and re-engaging and repositioning 
the institutions that are the cornerstones of the community: the 
schools, HBCUs and other higher education institutions; faith 
institutions, civic and non-governmental associations and government 
agencies; corporations, small and disadvantaged businesses; hospitals, 
health centers and other drivers of not only the economy but the 
health, vibrancy, security and diversity of this community.
    An examination of our nation's response in the immediate aftermath 
of 9/11, before we had the Department of Homeland Security, can be 
instructive. Immediately following 9/11, Americans got a glimpse of our 
better selves. Thousands of individuals and organizations rallied to 
assist those whom we perceived at that time to be most vulnerable: 
those who were caught in the World Trade Center, the Pentagon, or on 
Interstate 395 leaving the District of Columbia on foot because traffic 
was at a standstill, or who were ordered to leave buildings without 
access to their belongings or automobiles and with subways ``on lock 
down.'' We rallied to support our inadequately paid public health and 
safety workers who raced toward situations of imminent danger and 
exposed themselves to harm's way so that others might live. We rallied 
to assist social service agencies, non-profit associations, neighbors 
and others whom some of us never recognized as connected to us until 
that fateful day.
    September 11th occasioned more physical, emotional, and economic 
loss than has yet been tallied. The highly visible, unfathomable 
tragedies of that day, elicited deep compassion and shared grief. As a 
nation, we channeled our compassion and shared grief into appropriate 
action. In the days and months immediately following September 11th, 
we, as a united nation rallied to raise record amounts of money for the 
``family and community discordance'' that those horrific events 
triggered. We raised incredible amounts of public and private money to 
provide needed survivor assistance for families devastated by the 
unconscionable events. You, our representatives in Congress, quickly 
approved sorely needed dollars for increased public safety and 
infrastructure undergirding. We donated innumerable hours to public 
service and heroic relief efforts. Those days provided us with a 
glimpse of our better selves.
    Following the highly public devastation of 8/25--Hurricane 
Katrina--the most destructive and costly natural disaster in U.S. 
history that wiped out entire communities and devastated the HBCUs in 
the region--there was also a public outpouring of deep compassion and 
caring. People from every corner of the nation and indeed across the 
globe, from all walks of life, channeled their compassion and shared 
grief into appropriate affirmative action. Every HBCU and PBI in the 
nation responded by opening their doors or extending resources in some 
manner to save the compromised HBCUs and thereby assist to save the 
families and communities hit hardest by Katrina--those of least 
advantage. Traditionally White Institutions (TWIs) and others of 
goodwill did similarly.
    Disturbingly, neither the federal nor the state government--those 
who are responsible for investing public dollars in providing for the 
common defense, promoting the general welfare, and securing the 
blessings of liberty for all Americans, responded to Katrina as they 
did to 9/11. Many have suggested that part of the reason has to do with 
the race and class of the victims. The ``public faces'' of 9/11 were 
mostly white, whereas the ``public faces'' of Katrina were mostly 
colored and poor. Those who had their lives devastated and unalterably 
changed as the result of 8/25 were those of least advantage.
    Although I will not revisit the debate about the public failings 
following 8/25, it is important to note that we knew what to do 
following 9/11, and we as a nation did it. We knew what to do following 
8/25, and we as a nation did not take many of the affirmative steps we 
knew to take. We knew that in order to move the families of direct 
victims of the September 11th attacks and of the 8/25 devastation from 
the depths of despair and uncertainty to a restored, albeit tenuous, 
sense of normalcy, we needed to shore-up their lives: provide for their 
immediate human needs, provide appropriate social services, spiritual 
support and counseling, and provide an educational base upon which they 
could ensure their future independence.
    Instinctively, we quickly thought about the children of the 9/11 
victims and the future of those children. Interestingly enough, for 
those children we equated a brighter future with the fulfilled promise 
of educational opportunity. After the terrorist attacks six years ago, 
millions of dollars in public and private aid became available to 
educate victims' family members, in many cases, without regard to 
financial need. Some students eligible for scholarships from various 
September 11 programs come from families with real financial need. 
Others come from families who earned in excess of $200,000 annually and 
whose parents left them with financial security. Many received victim 
compensation funds averaging $1 million. Almost 50 new organizations 
were created in the wake of September 11 to distribute almost $1.5 
billion in various forms of aid. More than 40 programs and a dozen 
institution-specific funds were created to aid victims' families. One 
year after 9/11, well over $100 million was made available in education 
scholarships, and these amounts did not include a multitude of regional 
tuition waivers and loan forgiveness programs.
    In the nearly two years following 8/25--following Katrina--there 
has been no comparable public investment in public education in lower 
or in higher education. Some of the elementary and secondary schools in 
the areas hit hardest by Katrina are still not opened. And, at the 
postsecondary level, SUNO, the state's only public four-year 
institution in New Orleans that educates disproportionate numbers of 
students of little advantage is still operating out of trailers and has 
had its shape and offerings drastically altered by the state 
legislature in what some believe is an effort to transform the 
institution into a two-year institution. A total of $190 million in 
federal dollars was appropriated for the state higher education boards 
in Louisiana and Mississippi: $95 million each to Louisiana and 
Mississippi to divide among all higher education institutions that 
suffered loss as the result of Katrina. Dillard, SUNO, and Xavier alone 
occasioned $1 billion in financial loss.
    In the immediate aftermath of 9-11, we strengthened the whole 
community by assisting those whom we considered most vulnerable. In so 
doing, we demonstrated the faith, hope, and charity that strengthen the 
human community. In the immediate aftermath of 8-25, we floundered and 
bungled and have yet to make the level of public investment in 
rebuilding New Orleans and rebuilding our HBCUs that are the anchors of 
the devastated areas. To be sure, there were exceptions to this 
generalization. For example, Under Secretary Jackson's leadership, HUD 
responded in a decisive and creative manner as did the Department of 
Education under Secretary Spellings. Other government entities, 
including National Institute of Minority Health and National Institute 
of Mental Health responded with swift, affirmative action, but as a 
whole, the federal response has been lacking.
    It is not too late to adjust our public response to Katrina and the 
rebuilding efforts to demonstrate the faith, hope and charity that make 
our nation strong. This Committee can begin today by taking a number of 
steps:
        (1) Require that a percentage of the laboratory and research 
        facilities investment of the Homeland Security Department go to 
        building and strengthening the laboratories and research 
        facilities of the HBCU campuses ravaged by Katrina and of those 
        on the campuses of their Sister HBCUs that are strategically 
        located in frontline responder areas around the country, and 
        could provide the biological, chemical, radiological, nuclear 
        science, technology, computer and information science necessary 
        to prevent, deter, detect, and mitigate the use of weapons of 
        mass destruction;
        (2) Require that a percentage of the scientific and 
        technological resources invested by the Homeland Security 
        Research Agency provide federal, state, and local officials 
        with the technology and capabilities to protect the homeland be 
        set aside for the HBCUs in areas hit hardest by Katrina and for 
        other HBCUs;
        (3) Designate one of the nation's HBCUs as a Homeland Security 
        Center of Excellence and afford these traditionally under 
        resourced, richly diverse higher education institutions the 
        opportunity to bring together leading experts and researchers 
        to conduct multidisciplinary research and education for 
        homeland security solutions;
        (4) Design and operate through NAFEO a new program designed to 
        encourage and support the involvement of high-need, diverse 
        students in meeting a homeland, campus, or community security 
        research, policy or practice need; and
        (5) Invest first in making HBCUs ``disaster- resistant 
        universities'' (DRUs) (defined as colleges or universities that 
        have incorporated into their overall mission, initiatives to 
        facilitate and enhance communication and the exchange of ideas 
        among its community of students, faculty, scientists, 
        practitioners, and policymakers, in order to identify urgent 
        and important issues and measures related to the understanding 
        and mitigation of natural, technological, and other disasters); 
        and then, equip them to prepare the communities in which they 
        are located. In testimony submitted by NAFEO to this Committee 
        for its May 14th hearing on campus security, readiness and 
        response, we outlined the reasons for this recommendation and 
        why this would be an effective, equitable and efficient 
        investment of sparse public dollars. We wrote in that 
        submission:
                ``HBCUs must become prepared [to rebuild, protect and 
                secure their communities] not only for the benefit of 
                their campuses and the residents of their campuses, but 
                also for the benefit of the communities in which they 
                are located. As the economic engines and the social and 
                cultural centers for the communities in which they are 
                located, many HBCUs are the providers of services 
                (water, sewer, electricity) for the communities in 
                which they are located. They are uniquely situated and 
                equipped to become first responders to community 
                emergencies and also to train those in the community 
                how to avoid, mitigate, and respond to emergencies and 
                disasters.''
    We also noted the need for the proposed investments:
                ``HBCUs are under-resourced and have as the priority 
                for their limited resources student learning and 
                achievement. They are located in areas where a natural 
                disaster is not only possible but also probable--in the 
                Gulf States and on the East Seaboard, where hurricanes 
                are prevalent and in our country's midsection, also 
                known as ``Tornado Alley.'' They are in urban and rural 
                areas where terrorism is a threat and the rates of 
                crime are high. They are clustered around potential 
                target sites such as nuclear facilities, oil and gas 
                supply sources and waste disposal plants.''
    There is a legislative foundation and precedent for the proposed 
types of investments in HBCUs in the Executive Order 12876 establishing 
the White House Initiative on HBCUs, as well as in the Higher Education 
Act and other federal legislation.
    The data show that a postsecondary education is today the engine 
that drives the American economy. Data also demonstrate that HBCUs are 
extraordinarily successful at educating African Americans in STEM 
disciplines, health professions, as teachers and in other high-need 
professions. The proposed shift in the allocation of already 
appropriated dollars is the best investment the nation can make in its 
future:
                <bullet> HBCUs represent only three percent (3%) of all 
                colleges and universities, yet they enroll fourteen 
                percent (14%) of all African Americans in 4-year degree 
                granting institutions;
                <bullet> HBCUs graduate thirty percent (30%) of African 
                Americans receiving 4-year degrees, and forty percent 
                (40%) of African Americans receiving 4-year degrees in 
                STEM areas;
                <bullet> Twenty-four percent (24%) of all PhDs earned 
                each year by African Americans are conferred by twenty 
                four (24) HBCUs;
                <bullet> Eighteen (18) of the top twenty-three (23) 
                producers of African Americans who go on to receive 
                science-related PhDs are HBCUs;
                <bullet> Four (4) of the top ten (10) producers of 
                successful African American medical school applicants 
                are HBCUs. These HBCUs produce twenty percent (20%) 
                more African American applicants than the other six (6) 
                institutions combined;
                <bullet> Eight (8) of the top ten (10) producers of 
                African American engineers are HBCUs.
    Thomas Jefferson's admonition that a nation cannot be both ignorant 
and free is a sober reminder of what's at stake for our nation's 
future. Recent history has also taught us that a nation cannot be both 
ignorant and secure.
    I thank you, kindly, for affording me the opportunity to submit 
this testimony. I stand ready to answer any questions you may have.

    Chairman Thompson. I now recognize Mr. McDonald to 
summarize his statement for 5 minutes.

BRYAN McDONALD, DIRECTOR, OFFICE OF RECOVERY AND RENEWAL, STATE 
                         OF MISSISSIPPI

    Mr. McDonald. Thank you, Mr. Chairman. I would like to 
thank the members of the House Homeland Security Committee for 
allowing us to tell you about the tremendous recovery that is 
occurring in our great State. I want to thank you very much, 
Mr. Chairman and distinguished members of the committee, for 
giving us this opportunity to come before with you today and 
tell you about this.
    On August 29th, 2005, Hurricane Katrina gave Mississippi a 
grievous blow. Katrina completely devastated our entire 
coastline from Pearlington to Pascagoula. Our State and our 
citizens bore the brunt of a hurricane more devastating than 
anything this Nation has ever seen; and the miles upon miles of 
utter destruction on the ground were unimaginable, except for 
those, like many of you, who witnessed it with your own eyes.
    But this hurricane wasn't just a calamity for the 
Mississippi gulf coast. Its impact reached far inland into our 
State, with hurricane-force winds extending more than 200 miles 
from the coast and electricity cut off for more than 80 percent 
of our State's 3 million residents.
    Mississippians found themselves having to scramble and 
adjust and innovate and make do. However, it was the spirit of 
our people that pulled us through. Our people are strong and 
resilient and self-reliant. They are not into victimhood. Their 
spirit has been an inspiration to us all, and that spirit 
remains the key to our rebuilding and recovery efforts.
    We also appreciate FEMA's partnership in cooperation with 
the State and local units of governments administering the 
Federal Public Assistance Program. Local governments are 
working with State and Federal officials to manage the process 
of obligating and closing out more than $2.1 billion in public 
assistance through the Department of Homeland Security and the 
Federal Emergency Management Agency.
    To date, FEMA has generated more than 10,000 project 
worksheets for repair and rebuilding projects in Mississippi's 
communities. FEMA serves as a good partner for the State, and 
we applaud their commitment to work and make the public 
assistance process sufficient despite the unprecedented 
destruction of this disaster.
    Today, we are working hard to ensure that FEMA focuses its 
efforts on completion of the public assistance close-out 
process. Closing existing project worksheets is critical to our 
recovery and rebuilding efforts. It ensures that local 
governments receive the final allocations of recovery money and 
that contractors and subcontractors get paid for work that, in 
many cases, was completed more than a year ago.
    The State places great priority on completion of the 
outstanding project worksheets, and we are especially concerned 
that the potential impacts of future disasters in the United 
States could require mass reallocation of FEMA staff away from 
the gulf coast, thereby compounding the problem. As a result, 
we asked that FEMA give particular priority to eliminating the 
current backlog of PW closeouts.
    Another key component in the effective recovery and 
rebuilding of the coast of Mississippi is the State's 
comprehensive approach to mitigating against the risk of future 
storms. We are committed to achieving this goal through the use 
of FEMA's Hazard Mitigation Grant Program. To date, that 
program has over $434 million for use in Mississippi. 
Participation in the HMGP program requires a 25 percent local 
cost share which currently stands at about $145 million.
    We want to help the local applicants meet their cost share 
through the use of HMGP's use of the Global Match provision. 
Global Match is a process that allows non-Federal funds that 
are used for other projects that were in keeping with the goals 
of the hazard mitigation program to count towards that 25 
percent local match. The Global Match concept is widely 
accepted by FEMA.
    Mississippi has closed over 90 percent of the eligible 
phase one homeowner assistance grants totaling more than $900 
million. We believe that the use of those projects for Global 
Match would eliminate the need for local governments to provide 
their match with local funds, and we ask for FEMA's continued 
assistance in making Global Match a viable solution for 
Mississippi.
    As we find ourselves in the implementation phase of 
recovery, we understand that the work to recover, rebuild and 
renewal will take years. More importantly, however, it will 
take the continued support of our Nation's leaders and the 
American people.
    Much opportunity lies ahead. Hurricane Katrina, with all of 
its destruction, gave birth to renaissance in Mississippi that 
will result in rebuilding our State bigger and better than ever 
before. Our citizens will be at the heart of that effort.
    The people of our gulf coast have been a model of the 
spirit of Mississippians. They have remained strong and 
resilient and self-reliant though they have endured terrible 
hardships. They bore the worst of Katrina, and many are still 
living in conditions that amount to deprivation, but they 
persevere. Our people are rebuilding one day at a time, and we 
ask for your continued assistance in the move forward.
    Through your efforts and the efforts of the people of our 
great State, we are rebuilding a Mississippi that will exceed 
anything you have ever known. I want to thank you again for 
your time this morning and your continued interest and your 
continued support.
    Chairman Thompson. Thank you very much for your testimony.
    [The statement of Mr. McDonald follows:]

                  Prepared Statement of Bryan McDonald

    I'd like to thank the members of the House Homeland Security 
Committee for allowing us to tell you about the tremendous recovery 
that is occurring in our great state. Thank you very much Mr. Chairman 
and Ranking Member and distinguished members of the committee for 
giving me the opportunity to come before you today.
    On August 29, 2005, Hurricane Katrina struck Mississippi a grievous 
blow. Although the eye of the storm landed at the Mississippi-Louisiana 
line, that eye was more than thirty miles wide, and Katrina completely 
devastated our entire coastline, from Pearlington to Pascagoula. The 
miles upon miles of utter destruction are unimaginable, except to those 
like many of you who have witnessed it with your own eyes. But this 
hurricane wasn't just a calamity for the Mississippi Gulf Coast. Its 
impact reached far inland in our state with hurricane force winds 
extending more than 200 miles from the Coast.
    The storm claimed the lives of more than 230 Mississippians. The 
combination of the storm's slow speed and the shallow waters off the 
Mississippi shoreline created a storm surge in excess of 30 feet in 
some areas. More than 80 miles of Mississippi coastline were completely 
destroyed by the mixture of high storm surge and strong winds. In her 
wake, Katrina left literally tens of thousands of uninhabitable, often 
obliterated homes; thousands of small businesses in shambles; dozens of 
schools and public buildings ruined and unusable; highways, ports and 
railroads, water and sewer systems, all destroyed.
    Damage along Mississippi's Gulf Coast was widespread, as damage 
estimates totaled more than $125 billion. The Federal Emergency 
Management Agency (FEMA) reported that 65,380 homes in south 
Mississippi were severely damaged or destroyed. Electricity was lost 
for 80 percent of the state's three million residents. More than 45 
million cubic yards of debris was left in Hurricane Katrina's wake in 
south Mississippi--double the debris that was created by Hurricane 
Andrew. Hurricane Katrina's effects on Mississippi alone, therefore, 
would rank as the largest natural disaster ever to strike the United 
States.
    Our state and our citizens bore the brunt of a hurricane more 
devastating than anything this nation had ever seen, and the miles upon 
miles of utter destruction on the ground was unimaginable--except to 
those who witnessed it with their own eyes.
    Hurricane Katrina destroyed thousands of businesses and billions of 
dollars in sales revenue were lost. Beachfronts and hotels were 
obliterated. Losses in livestock and agriculture hit our state's 
farming community especially hard. Small businesses--the lifeblood of 
many local economies--were wiped out along the coast line, and many 
were damaged or destroyed miles inland.
    Mississippians found themselves having to scramble, adjust, 
innovate, and make do. However, it was the spirit of our people that 
pulled us through. Our people are strong, resilient, and self-reliant. 
They're not whiners and they're not into victimhood. From day one after 
the storm they got to work and did what had to be done. They helped 
themselves and helped their neighbors. Their spirit has been an 
inspiration to us all, and that spirit remains the key to our recovery, 
rebuilding and renewal.
    However, several barriers to recovery still exist. The Department 
of Homeland Security, and more specifically, the Federal Emergency 
Management Agency, has the opportunity to remove some of those 
barriers, thus speeding recovery and allowing Coastal Mississippi to 
meet its potential.
    Coastal Mississippi's local units of government have faced an array 
of challenges since August 29, 2005. Six of the eleven coastal cities 
elected new, first-term mayors less than two months before Hurricane 
Katrina made landfall. Although all within miles of each other, these 
eleven cities each had long-standing, distinct identities and enjoyed 
diverse economies and populations.
    The effects of the storm also were unique to each community. Some 
cities have seen increased sales tax revenues compared to the same 
period in the previous fiscal year while others look to loans and 
government grants to provide necessary services in the near-term. The 
State of Mississippi has provided grants of direct cash aid to 
stabilize struggling coastal governments.
    Of particular note is the stellar job local governments have done 
working with state and federal officials to manage the process of 
obligating and closing out more than $ 2.1 billion in Public Assistance 
dollars through the Federal Emergency Management Agency. To date, FEMA 
has generated more than 10,000 Project Worksheets for repair and 
rebuilding projects in Mississippi's communities. FEMA has served as a 
good partner for the state, and we applaud their commitment to work 
with the state and locals to make this Public Assistance process 
efficient, despite the unprecedented destruction of this disaster.
    Today, we are working hard to ensure that FEMA focuses its efforts 
on completion of the Public Assistance closeout process. Closing 
existing project worksheets is critical to ensuring that local 
governments receive final allocations of recovery money, and thus are 
able to pay contractors and subcontractors for work that in many cases 
was completed more than a year ago. The state requests that FEMA commit 
to a staffing plan that will provide for the closeout of all Category A 
and B project worksheets by December 31, 2007.
    The state also places great priority on completion of the various 
outstanding project worksheets. We are especially concerned that the 
potential impacts of future disasters in the United States could force 
mass relocations of FEMA staff away from the Gulf Coast. As a result, 
we ask that FEMA give particular priority to eliminating the current 
backlog of project worksheets by August 31, 2007.
    Mississippi is committed to working to maintain the positive 
momentum and cooperative spirit that exists between FEMA, the state, 
and locals. In recognition of the cooperative spirit that exists, we 
also seek to ensure that FEMA headquarters continues to honor critical 
decisions made by local FEMA leadership and field personnel in the 
weeks and months immediately following the disaster. We believe it is 
important for decisions made by local FEMA leaders during the immediate 
post-disaster environment to be affirmed and upheld throughout the 
disaster recovery process. It is critical that decisions made on the 
ground carry weight throughout the agency, such that state and local 
elected officials can act quickly and in good faith based on those 
decisions.
    Of final note, local units of government have provided great 
leadership in ensuring that Mississippi is built back better than ever. 
Following the unprecedented Mississippi Renewal Forum in mid-October 
2005, which paired Mississippi architects and elected officials with 
international experts in architecture and urban planning, most cities 
along the Coast have sponsored more intensive, multi-day charrettes, or 
planning and design sessions. These sessions attract the talents of 
worldwide experts and non-profit community building organizations and 
also provide broad public participation.
    A key component of the effective revitalization of Coastal 
Mississippi is the state's comprehensive approach to mitigating against 
the risk of future coastal hazards. We are committed to achieving this 
goal through intelligent use of Hazard Mitigation Grant Program monies.
    The Hazard Mitigation Grant Program is a federal program 
administered by the Federal Emergency Management Agency that provides 
post disaster funding to reduce or eliminate the future impacts of 
natural hazards to lives and property. Some examples of HMGP eligible 
activities are: residential storm safe rooms, retrofitting public 
facilities, hardening of public facilities to serve as shelters, buyout 
of property, elevating homes, and reconstructing homes in a safe 
manner.
    As with most federal grant programs, HMGP requires a 25% non-
federal cost share. The Mississippi Emergency Management Agency (MEMA) 
serves as a sub-grantee and is responsible for establishing project 
priorities and program oversight. HMGP funds are computed by 
calculating 7.5% of total federal disaster cost. To date, Hurricane 
Katrina has generated $434 million in HMGP funds, thus requiring an 
estimated $145 million non-federal cost-share. Mississippi seeks to 
satisfy this cost share through the application of the ``Global Match'' 
concept.
    The term ``Global Match'' generally refers to a non-federal 
contribution derived from several non-federally funded projects that 
are pooled together to meet a grant award match commitment. Global 
Match may also apply when a single non-federally funded project is used 
to fulfill the match requirement for one or more federally funded 
projects. Generally, ``Global Match'' is used to fulfill the 25% or 
greater local and state match required by FEMA's Hazard Mitigation 
Grant Program.
    It is important to note that the application of the Global Match 
concept is a completely separate issue from the non-federal match for 
Public Assistance. The State of Mississippi has set aside funds 
required for the Public Assistance match.
    Mississippi's application of Global Match seeks to allow the 25 
percent HMGP match to be met with non-federal funds that were used for 
other projects that were in keeping with the goals of the Hazard 
Mitigation Grant Program. The state is tasked with identifying such 
projects. In most cases, those projects would have qualified under 
HMGP, but were funded by a separate source (e.g. private monies, 
insurance proceeds, grants).
    Early after Hurricane Katrina, the state recognized that it should 
pursue the Global Match concept by which non-federal dollars could be 
applied to all HMGP projects as in-kind (in lieu of cash) match. More 
specifically, it was identified that Community Development Block Grant 
funds utilized in the state's Homeowner Assistance Program (HAP) could 
serve as sufficient match for the entire $433 million. A Memorandum of 
Understanding between the Department of Homeland Security and MEMA 
regarding the eligibility of projects to serve as match for HMGP was 
drafted and signed in 2006.
    The use of Global Match will directly allow our local communities 
with devastated infrastructure, tax bases and finances, to pursue FEMA 
approved goals, including, but not limited to, retrofitting public 
facilities, hardening of public facilities to serve as shelters, buyout 
of property, etc. In addition, the very communities where need is the 
greatest have the highest level of inability to provide detailed 
projects under the HMGP guidelines to secure HMGP funding. Those 
impacted communities do not have the manpower and finances to document 
and track the detail required by FEMA for such programs.
    Mississippi is working to allow the Homeowner Grant monies spent in 
conjunction with Mississippi's Homeowner Assistance Program (Phase I, 
Phase II, and Elevation Program) to qualify for Global Match. This will 
eliminate the need for local governments to provide the match from 
local funds. The grants mentioned above should qualify for Global Match 
because they achieve the same goals as HMGP. FEMA agreed to this at the 
local level, but was reversed in review. FEMA Region IV ruled that 
projects must be pre-approved and related cost must be captured and 
segregated into six categories. In addition, FEMA disallowed all Phase 
II costs due to the low-income nature of the plan (homeowners over 120 
percent AMI do not qualify for Phase II grants). Compliance with Region 
IV's pre-approval request would have resulted in unallowable delays in 
Katrina recovery.
    The funds utilized by the State in the Homeowner Assistance Program 
(HAP) should be allowed to fulfill State requirements of Global Match 
in order to meet the matching requirements of the hazard mitigation 
grant program. To date the State of Mississippi through the Mississippi 
Development Authority (MDA) has taken 18,916 applications for Phase I, 
and has closed 90 percent of the eligible grant applications totaling 
more than $900,000,000. As stated in the MDA HAP, Partial Action Plan 
adopted by HUD, the purpose of the program is to provide a one-time 
grant payment, up to a maximum of $150,000, to eligible homeowners who 
suffered flood damage to their primary residence as of August 29, 2005, 
from Hurricane Katrina. In exchange for the grant payment, a qualifying 
homeowner must agree to a mitigation covenant on their property that 
establishes higher building codes, flood insurance and elevation 
requirements for the then or future owner of the land. These mitigation 
covenant requirements and improved standards were implemented after 
Hurricane Katrina on August 29, 2005.
    The mitigation covenant specifically states that the homeowner will 
now be required to: obtain and maintain flood insurance; rebuild and 
repair will be in accordance with the much more stringent 2003 
international building codes; if rebuilding, the home and all future 
structures will be elevated to the FEMA advisory flood elevations in 
effect at that time.
    Mitigation has taken place by the placement of the covenant 
irrespective of whether the homeowner has repaired, rebuilt or left the 
former home site vacant. The covenant is in place in all cases.
    The HAP grant award is not awarded to the homeowner unless the 
mitigation covenant is attached to the property legally. The mitigation 
covenant is in perpetuity, runs with the flooded land forever, and 
permanently impacts that locality. The mitigation covenant fulfills the 
legislative intent by significantly lessening the impact of a future 
similar storm or flooding event. Thus, Phase I funds distributed should 
be allowed to fulfill State requirements of Global Match in order to 
meet the matching requirements of the hazard mitigation program.
    The FEMA-State Agreement (MOU) presently provides for Global Match. 
However, it limits Mississippi's ability to qualify Phase I as a global 
match project because it requires ``any project contributing towards 
the program cost-share must meet all HMGP requirements, including all 
eligibility criteria.'' Such criteria, as provided in 44 CFR 
Sec. 206.434(c), restricts the State of Mississippi's ability to 
qualify Phase I because of the thousands of separate properties 
affected thereunder. Environmental assessments, cost-effective analysis 
and pre-certification of Phase I as they relate to each property are 
administratively fatal to qualifying Phase I for Global Match.
    As a result, Mississippi municipalities under severe financial 
strain are denied the benefits of the hazard mitigation grant program. 
Without the ability to utilize Phase I projects as the non-federal 
portion of the State's cost-share requirement, these counties cannot 
implement measures to achieve the goals of the hazard mitigation 
program to reduce the risk of future damage, hardship, loss or 
suffering, as outlined above. Thus, unless a solution can be found, the 
intended benefits of the hazard mitigation grant program will not be 
realized.
    Accordingly, the State of Mississippi respectfully requests that 
FEMA work with us to create an acceptable mechanism to qualify Phase I 
as consistent with the goals of HMGP so that it will be eligible to 
serve as then on-federal portion of the cost-share requirement, without 
requiring an administratively fatal analysis and application process.
    FEMA is authorized to waive such administrative regulations under 
42 U.S.C. Sec. 5141 (Stafford Act), which states that ``[a]ny federal 
agency charged with the administration of a Federal assistance program, 
may. . .waive. . . such administrative conditions for assistance as 
would otherwise prevent the giving of assistance under such programs if 
the inability to meet such conditions is a result of the major 
disaster.'' Clearly, Mississippi's inability to qualify for immediate 
disbursement of available hazard mitigation funds to begin 
implementation of its hazard mitigation programs is a direct result of 
the devastating impact of Hurricane Katrina.
    Aside from the ``Global Match'' concept, The State of Mississippi 
is also working with FEMA ensure that the agency's Reasonable Cost 
standards are applied in a manner that protects coastal communities in 
Mississippi that adhered to all Federal, State, and local procurement 
requirements.
    Under the Public Assistance Program, costs that can be directly 
tied to the performance of eligible work are generally eligible, given 
that the costs are reasonable and necessary to accomplish the work; 
compliant with Federal, State, and local requirements for procurement; 
and reduced by all applicable credits, such as insurance proceeds and 
salvage values.
    FEMA determines that a cost is reasonable if, in its nature and 
amount, it does not exceed that which would be incurred by a prudent 
person under the circumstances prevailing at the time the decision was 
made to incur the cost. In other words, a reasonable cost is a cost 
that is both fair and equitable for the type of work being performed.
    FEMA currently establishes reasonable cost standards through the 
use of historical documentation for similar work; average costs for 
similar work in the area; published unit costs from national cost 
estimating databases; and FEMA cost codes.
    However, due to the unprecedented nature of this disaster, some 
costs associated with recovery work have been deemed unreasonable by 
FEMA, despite the fact that applicants adhered to all Federal, State, 
and local procurement requirements. The state asks that FEMA expand its 
standards through which reasonable costs are established to take into 
account all factors contributing to the market conditions that exist in 
Mississippi's post-disaster environment.
    Despite the challenges that exist in Mississippi's post-disaster 
environment, several opportunities also exist. While many of the 
recovery projects in Mississippi are being funded through other federal 
agencies and programs, the Department of Homeland Security and FEMA has 
a significant role to play in the long term recovery effort.
    In fact, the state has entered into a partnership with FEMA for 
creation and implementation of a Long Term Recovery Process. This 
process is unprecedented in the fact that it gives the Department of 
Homeland Security and FEMA an opportunity to lend their expertise to 
assist in long term recovery project implementation, regardless of the 
funding sources or federal agencies involved. The State of Mississippi 
and local FEMA leaders view this proactive process as a model that 
could guide long term recovery efforts during future disasters. Due to 
the array of long term recovery opportunities that exist, the State of 
Mississippi is working with FEMA to increase the federal resources 
allocated to the Long Term Recovery Process.
    Building on the long term recovery plans written by FEMA's 
Emergency Support Function 14, the new Long Term Recovery process takes 
additional steps to identify and secure state and federal resources 
necessary for long term recovery plan implementation. The Long Term 
Recovery Process allows FEMA to begin developing best practices for 
long term recovery to compliment the immediate response expertise the 
agency already posseses. The Long Term Recovery Process also allows 
FEMA to develop a program by which it partners with the state and local 
units of government to move beyond the realm of long term recovery 
planning, and into the realm of long term recovery implementation. In 
many cases, long term recovery projects identified in FEMA's plans are 
being funded through Mississippi's Community Development Block Grant 
allocations.
    Rebuilding and expanding our state's economic infrastructure, 
creating jobs, and stabilizing our state's insurance market are top 
priorities. Restoring our state's economic base and tax revenues is 
critical to the long-term recovery of the state. Federal monies have 
contributed greatly to the improving quality of life in coastal 
Mississippi. However, we are still presented with challenges. We are 
grateful to President Bush and Congress for trusting us with these 
funds, and we pledge to continue to be good stewards of the taxpayer's 
money.
    Education is the number one economic development issue in 
Mississippi and in every other state; and it is our number one quality 
of life issue, too. That is why it is our top priority and why it 
receives 62% of the state's budget. As such, our schools' recovery from 
Hurricane Katrina is perhaps one of the finest examples of the many 
markers of recovery that exist.
    Katrina had a devastating impact on Mississippi's public schools. 
79 school districts, a total of 263 schools, suffered damage. The storm 
totally destroyed 16 schools and severely damaged another 24. Only 14 
of 152 school districts statewide did not miss any days due to the 
storm. All told, nearly 80,000 children were out of school in 
Mississippi immediately after Katrina. However, children did not stay 
out of school for long, as local school districts and FEMA cleaned up 
and repaired the schools that received minimal damage and secured 
portable classrooms for those schools that were more heavily damaged.
    Most Mississippi school districts were able to resume operations 
within two weeks after the storm. A mere six weeks after the storm, all 
but one school district on the Coast, Bay St. Louis-Waveland, was back 
open, and that school district opened November 7th. As of the spring 
semester of the '05-'06 school year, Mississippi K-12 schools in six 
coastal counties were operating at nearly 90 percent of pre-Katrina 
enrollment. Those enrollment numbers are even higher today.
    There is a real lesson to be learned from the administrators, 
teachers, students and parents that worked tirelessly to ensure that 
Hurricane Katrina did not cripple education in South Mississippi.
    This testimony would be remiss if it did not also mention the 
tremendous impact non-governmental organizations have had on our 
state's recovery. Since the hurricane, we have been overwhelmed by the 
support of people from across the nation and world willing to help us 
get back on our feet. Their generosity has been indispensable to 
Mississippians who are trying to rebuild their homes, communities, and 
lives. They've been evidence that an awful disaster can bring out the 
best in people.
    Perhaps no sector deserves more gratitude than the faith-based and 
not-for-profit organizations. These NGOs provided shelter, food, 
clothing, and financial assistance in the hours following Hurricane 
Katrina and have been unwavering in their presence and support since 
then. Many of these volunteer organizations are familiar names, such as 
the United Way, American Red Cross, Salvation Army, Back Bay Mission, 
and Catholic Relief Services. Others, such as the Hands On Network, 
United Methodist Committee on Relief (UMCOR), Kaboom!, and the 
Mennonites may not have been well known to many South Mississippians 
before August 29, but now will never be forgotten. Their work and the 
work of hundreds more like them have restored hope and helped to 
rebuild lives.
    After the untold suffering and loss from the devastation of 
Katrina, Mississippi is well on its way toward recovery. At this point 
in the recovery process, the state has worked to fulfill the temporary 
recovery needs of our citizens, while developing solutions for the 
long-term problems facing storm-wrecked communities. Much of the 
federal assistance needed to address the projects and policies 
identified in state and local plans has been procured. As such, the 
state now finds itself in the implementation phase of recovery.
    We understand that our work to recover, rebuild, and renew will 
take years. More importantly, however, it will also take the continued 
support our nation's leaders and the American people. Katrina revealed 
to the world and to ourselves the character and spirit of 
Mississippians. That revelation creates unprecedented opportunity for 
us and our state - opportunity for job creation and economic 
prosperity; for a better quality of life for our people; for greater, 
more widely spread equity that at any other time in our history.
    Indeed, much opportunity lies ahead. Hurricane Katrina, with all 
its destruction, gave birth to a renaissance in Mississippi that will 
result in rebuilding our state bigger and better than ever before. Our 
citizens will be at the heart of that renaissance. The people of our 
Gulf Coast have been a model of the spirit and character 
Mississippians. They have remained strong, resilient and self-reliant 
though they have endured terrible hardships. They bore the worst of 
Katrina and many are still living in conditions that amount to 
deprivation, but they persevere. Our people are rebuilding one day at a 
time, and we ask for your continued assistance in helping them move 
forward. Through your efforts and the efforts of the people of our 
great state, we are rebuilding a Mississippi that will exceed anything 
we have ever known.
    Thank You.

    Chairman Thompson. I now recognize Mr. Johnson to summarize 
his statement for 5 minutes.

  STATEMENT OF JEFF JOHNSON, PRESIDENT AND CEO, TRUTH IS POWER

    Mr. Johnson. I would like to thank you for the opportunity 
to the ranking members and members of the committee. Thank you 
for the opportunity.
    It is interesting because, despite the fact that I am 
testifying as a journalist through BET, formally serving as the 
national youth director of the NAACP and organizing young 
people all over the country, we have seen on many levels how 
the story of this tragedy has not just been the great deal of 
discomfort and tragedy, for that matter, that those residents 
have had to endure. But the story in many cases have been the 
normal, average people that have stepped up to try to provide a 
great deal of service to those who have been displaced, even 
sometimes as displaced people themselves.
    There have been a cadre of community based organizations 
that have provided a number of services--and I think some of 
them have even been mentioned today, whether they be Common 
Ground, the People's Hurricane Relief Fund or Project Heal--
that have done everything from serve as conduits to existing 
resources to ensuring that people actually have the base needs 
within local communities or the ability to be able to rebuild 
and recapture some sense of normalcy.
    The fund-raising effort, as well, has been engaged by local 
folks, small organizations, nonprofit organizations and even 
private citizens. I think Mr. Castellani spoke about the 
corporate responsibility and the fact that corporate 
infrastructure has assisted a great deal. BET was one of those 
corporations that stepped up very early in the game, pulling 
together a telethon that raised not only $10 million but I 
think began to personify the philanthropic power of the 
entertainment industry and specifically an entertainment 
industry that had not traditionally been engaged in 
philanthropic outreach.
    So we saw members of the Hip Hop community, whether it was 
Jay-Z and Puffy, who gave over a million dollars themselves, or 
whether it was the broader community that traditionally has 
given in unsophisticated philanthropic ways in their 
communities, give in very targeted and strategic ways to the 
aid effort here.
    One of the artists that I think really personifies that but 
goes unmentioned is David Banner, who is an artist that, in the 
midst of this post-Imus community, probably has some of the 
most questionable lyrics within Hip Hop but was one of the most 
avid organizers, especially within the State of Mississippi, 
that did not get the media attention that we know New Orleans 
received in galvanizing the members of the Hip Hop community to 
raise not only a million dollars but to send over 18 tractor 
trailers of aid and supplies to the gulf coast region in 
Mississippi specifically.
    In my experience within the gulf, I was on the ground 
immediately pretty much day 10 and working with some of the 
organizations on the ground. Myself and a young man named Kevin 
Powell helped to advise and organize a group called Katrina on 
the Ground, which were college students who gave up their 
spring break to go down to the gulf coast region and provide 
aid and services to existing organizations. This was an effort 
totally and completely run and managed by students and funded 
on a shoestring budget taking students initially into Selma, 
Alabama, to be trained and then dispatched into Mississippi and 
New Orleans to be able to provide aid.
    Additionally, I have served as executive director on a 
documentary called Picking Up the Pieces, which a student named 
Yasmine Gabriel, who was displaced as a medical student, 
decided after talking to her FEMA director to get a camera and 
put together a documentary about the story of students who were 
displaced. She funded it, she shot it, and she produced it on 
her own without any help and is now, in fact, I think an 
example. She moved to Washington, D.C., in less than a week to 
now enroll in law school. She was in medical school, now is 
enrolling in law school. It speaks to the power of the students 
who were involved.
    In the short amount of time left, the recommendations that 
I would give is to assist in building the capacity of these 
organizations and individuals; building strategic development 
of legitimate public and private sector partnerships designed 
to create long-term economic stability for local communities; 
to have the creation of affordable housing development 
partnerships between the private sector and local CDCs with 
percentages of revenues going to support local social programs; 
the distribution of targeted grant funds to increase capacity 
of local organizations and nonprofits; and, finally, the 
support of ongoing student volunteer efforts during summer and 
spring breaks to ensure that we see students on the ground 
assisting in the ongoing effort.
    Thank you so much, Mr. Chairman, for the opportunity and 
the committee for allowing us to give our testimony.
    Chairman Thompson. Thank you very much.
    [The statement of Mr. Johnson follows:]

                   Prepared Statement of Jeff Johnson

    Chairman Thompson, Ranking Member King, and distinguished members 
of the House Committee on Homeland Security:
    My name is Jeff Johnson and I am pleased to appear before you today 
as the President and CEO of Truth is Power. I greatly appreciate the 
opportunity to testify on this incredibly important and pressing issue. 
Hurricane Katrina, and all that came along with the storm, has been 
labeled as the greatest natural disaster in the history of the United 
States. However, the ``greatest'' story may very well be how the 
nation's people and small organizations responded to the needs of the 
citizens in the Gulf Coast region.
    There is a cadre of non-profit and community based organizations 
that have provided everything from assistance with the identification 
of basic resources to rebuilding homes and reopening small businesses. 
Organizations like Common Ground, the People's Hurricane Relief Fund 
and Project Heal are just a few of the organizations that have taken on 
the Herculean task of providing not only services and resources, but 
hope to communities throughout the entire Gulf Coast Region.
    The People's Hurricane Relief Fund supports and networks service 
providers of housing, healthcare, case management, and legal services 
to Internally Displaced Persons (IDPs) and residents, but do not 
provide direct services. Their web site states, ``We Must Build a 
Strong, Independent Gulf Coast Self-Determination and Reconstruction 
Movement so the People Can Decide!'' They are calling for the convening 
of the Second Survivors Assembly on Saturday, August 25th through 
Tuesday, August 28th, 2007 in New Orleans, Louisiana. Another 
grassroots organization, the Louisiana Environmental Action Network 
(LEAN) was founded to help Louisiana citizens change the balance of 
power. By empowering more than one hundred grassroots, community 
organizations, and countless individuals, LEAN has already helped in 
gaining a tremendous foothold in the war to make Louisiana's 
communities safer, healthier places to live. LEAN's expanded efforts 
will ensure that progression continues in the Gulf Coast region.
    The fundraising efforts for much of the work that has taken place 
in the Gulf has been corporate and grassroots driven. The SOS telethon 
hosted by Black Entertainment Television is just one example of how the 
corporate community engaged the average consumer to ensure that work to 
provide relief immediately after the storm did not come to a screeching 
halt as a result of limited financial resources. This effort by BET, 
not only raised over $10 million, but also personified the 
philanthropic power of celebrity communities that traditionally do not 
give beyond the borders of their own neighborhoods.
    In my capacity as a journalist for BET, I was made aware of efforts 
of celebrities utilizing their fame and resources to raise awareness 
and money for the Gulf. There were artists and entertainers who were 
natives of Mississippi and New Orleans who were anomalies, as they 
became ambassadors for their hometowns. One more noteworthy, but less 
heralded, was David Banner. He highlighted the duality and complexity 
of the hip-hop community in a ``pre-Imus'' world. Although David Banner 
has arguably some of the most controversial lyrics in hip-hop, without 
prompting or convincing he was one of the first people amongst the 
African American celebrity community on the ground in Mississippi where 
very little media attention was given. He galvanized media attention, 
human resources, and financial resources to provide immediate aid to 
communities that were not a part of the New Orleans media frenzy. 
Nearly $1 million was raised and 18 flat bead trucks full of supplies 
were sent into Mississippi through his efforts alone. Banner was just 
one example of several artists within the hip-hop community that 
stepped up to provide resources in the right places at the right times 
when the federal government was still making assessments of the damage 
caused by the hurricane.
    As a journalist and organizer, my personal involvement has been in 
galvanizing students specifically to provide grassroots support to the 
Gulf Coast and then reporting it. I served as one of the steering 
committee members of an initiative call Katrina on the Ground. 
Primarily myself and activist and writer, Kevin Powell of New York, 
funded the initiative, however students ran it in totality. This 
student-organized and student-led initiative mobilized over 3,000 
students for an alternative Spring Break 2006 to the Gulf Region for 
the purpose of providing support and increasing capacity to existing 
organizations on the ground. The students came from all over the Nation 
as a way to demonstrate that humanity and generosity of the American 
people extended into a generation that many continue to label lethargic 
and apathetic.
    The students began their service at training in Selma, AL, which 
served as an introduction for many of them to the reality of what they 
would see and would experience once they hit the ground in the Gulf. 
Secondly, the students were provided with an understanding that they 
were not being deployed to save helpless people, but rather being 
dispatched to assist a battered set of communities that were resilient 
in the face of tragedy. Finally, the students were provided base line 
training in local clean-up, administrative support, and other critical 
needs. The twenty-something organizer of KOTG, Wesli Spencer, states, 
``this effort was necessary to show this country the true dedication 
our generation has to making a difference''.
    Additionally, I have the pleasure of serving as the Executive 
Producer of a documentary produced, shot, and funded by a twenty 
something medical student displaced by Katrina. Picking Up the Pieces 
chronicles the untold story of how college students in the Gulf region 
were affected by Katrina. Yasmin Gabriel pulled together several 
students who share stories of driving across country once to find 
family members and then again to gain admission into any college or 
university that will admit them with little to no financial cost. While 
watching the documentary you are introduced to Patrick Robinson, a 25-
year-old student from New Orleans who emotionally recalls his return 
back to college right before Katrina. He defaulted on his student loans 
after Katrina due to the expiration of the three-month grace period. He 
is now working in Baton Rouge with few financial options to return to 
school. Picking Up The Pieces also highlights the struggles of Monique 
Hill, age 22, who went to Georgia State University after Katrina and 
after one semester Georgia State attached out of state fees to her 
tuition and FEMA denied her rental assistance, because neither she nor 
her roommate could claim head of household. Monique had to drop out of 
GSU and return to New Orleans to live at home with her parents--only 
her new home was a FEMA trailer. A young college student's dream 
deferred to attend business school in Georgia after graduation.
    This documentary does more than illustrate the resilience of 
America's students, but serves as a training video for how students and 
universities should prepare for and respond to natural and unforeseen 
disaster situations. The aforementioned projects and initiatives and 
the students that organized and staffed them should be applauded. 
However, in some cases they are services that should have been provided 
or at the very least supported by government resources. In fact, the 
Department of Homeland Security's Office of the Federal Coordinator for 
Gulf Coast Rebuilding could very well serve as the primary facilitator 
for such efforts.
    During my last visit to New Orleans I was simultaneously encouraged 
and horrified. It was evident that there was a renewed spirit in the 
downtown and French Quarter areas of the city that seemed to have 
revitalized the important tourism industry of the Big Easy. However, 
there is little easy about the reality of the Lower 9th ward, Biloxi, 
MS and countless places between the two that have seen little to no 
change since the waters receded. There are still communities in FEMA 
trailers, homeowners unable to gain resources to rebuild, and 
generational residents indefinitely displaced. This was not the picture 
of the Gulf I thought we would see over a year later.
    In my testimony today, I have attempted to provide you with several 
examples of private citizens, local organizations, and even large 
corporations that stepped in to provide service and resources to 
restore some since of normality and dignity to the proud people of the 
Gulf. These organizations and programs cannot fulfill the remaining 
work that must be accomplished without the support of the Federal 
Government and more specifically, the Department of Homeland Security. 
The benefit of the existing scenario is that the infrastructure and 
staff is already in place. In my trainings, I teach that you need the 
three C's, Commitment, Competence, & Capacity, to have effective impact 
during any grassroots campaign. The organizations and individuals on 
the ground have a proven track record of commitment and competence. 
They are now just in need of the third ``C''; Capacity. The Department 
of Homeland Security should begin identifying resources and developing 
viable partnerships with proven community based and non-profit 
organizations to increase the capacity of the work they have done for 
the last 18 months. Our country must do all it can to not only support, 
but also reward the civic and humanitarian ingenuity of citizens who 
have gone above and beyond to ensure the well being of the common man.
    The comprehensive work that needs to take place in the Gulf is 
multi-leveled and complex. I believe that some of the strategy must 
include but not be limited to,
        1. The strategic development of legitimate public & private 
        sector partnerships designed to create long-term economic 
        stability for local communities.
        2. The creation of affordable housing development partnerships 
        between the private sector and local CDC's with percentages of 
        revenue going to the support of local social programs.
        3. The distribution of targeted grant funds to increase 
        capacity of local organizations, non-profits, and service 
        providers with proven track records.

    Chairman Thompson. I would like to thank all of the 
witnesses for their testimony. I will remind each member that 
he or she will have 5 minutes to question the panel.
    I now recognize myself for the beginning of the questions.
    Mr. Johnson, in your testimony, you discussed various 
efforts that provided support served to the area ravaged by 
Hurricane Katrina. Is your testimony that many if not all of 
these services were provided without the guidance of the 
Federal Government?
    Mr. Johnson. In almost all of those cases, yes, sir.
    Chairman Thompson. Has the Office of Federal Coordinator 
for Gulf Coast Rebuilding been helpful?
    Mr. Johnson. In many cases, I don't believe that they--many 
of those organizations, in a poll that I took, knew that the 
office was there but have had no contact with anyone within 
that office. But a large number of the individuals on the 
ground don't even know that the office exists.
    Chairman Thompson. And I would just kind of like to ask Mr. 
Castellani, have you had an ongoing relationship with the 
Office of Federal Coordinator; and, if you have, can you tell 
me when that started?
    Mr. Castellani. Yes, we have. It began shortly after the 
office was established.
    We had a series of meetings with the office and the head of 
the office, and they were primarily helpful in pulling together 
the large number of groups that eventually participated in 
these initiatives that we are spearheading. So they were 
helpful in coordinating and bringing together the groups that 
ultimately formed the coalition that has the Initiative under 
way.
    Chairman Thompson. So I guess the point is, on the one 
hand, they worked substantially with the business community, 
but when you look at the nonprofit advocacy community, it is 
questionable.
    Mr. Castellani. If I might, the group that was pulled 
together included business, AFL-CIO, the trade unions, the 
NAACP, local communities. So the office pulled together those 
groups. It was not just business that they pulled together, and 
I didn't want to leave that misimpression. I am sorry.
    Chairman Thompson. Have you had any, Ms. Baskerville, had 
any knowledge of--working knowledge of the Office of Federal 
Coordinator as it relates to the Katrina/Rita response?
    Ms. Baskerville. I have not personally had any. I have not 
personally had contact with that office, Mr. Chairman. But I 
note that Norman Francis, who is Co-Chair of the Louisiana 
Recovery Efforts and is President of Xavier University, has 
been in contact with all of the various coordinating agencies. 
Norm Francis is not only the President of Xavier, but he is an 
alumni of Xavier University.
    I also note that Lieutenant General Honore, who is the 
commanding general of the First U.S. Army down in New Orleans, 
is a proud alum of Southern University and NAFEO Institution; 
and I trust that General Honore has been in touch with the 
office. But I have personally not been.
    Chairman Thompson. Thank you.
    Mr. McDonald, as you know, there are some parts of 
Mississippi that have much farther to go in the recovery 
effort. Some of it we will see during the break. Two of our 
committees will be traveling to Mississippi and Louisiana.
    What else can the Department do to assist in the rebuilding 
and recovery process, especially for those citizens that have 
been left behind?
    Mr. McDonald. Thank you, Mr. Chairman; and I do want to 
thank you for the field hearings and the continued interest.
    I think the first answer to the question is that sustained 
focus, the focus of this committee, of you, of Congress, on the 
recovery effort which candidly, as you know as a first 
responder in your background, is not as appealing as the 
response effort. Ice and water tends to get more attention than 
the effort of getting people back into houses and back into 
jobs.
    So the first answer would be the sustained focus and 
attention of this committee and of Congress; and as we move 
forward through this disaster, as I indicated, we look for and 
continue to need a streamlined, accelerated answer to policy 
questions and issues and the matter of resolution. Be it in the 
Stafford Act or with other Federal agencies, the ability to 
continue to assign priorities to the resolution of those 
recovery issues is certainly critical to where we go from here.
    Chairman Thompson. I thank you for the response. I think 
all of us as a committee and individually are on record that 
the response to Katrina and Rita was woefully inadequate. What 
we are trying to do with hearings like this is to have history 
not repeat itself, and it is your testimony and the testimony 
of others that will lead Congress to try and make sure that 
that not be the case going forward.
    My time has expired. I will now yield 5 minutes to the 
gentleman from Pennsylvania, Mr. Dent.
    Mr. Dent. Thank you, Mr. Chairman; and I guess my question 
will be to Mr. Castellani.
    What sort of State and local government participation does 
the Gulf Coast Workforce Initiative receive currently?
    Mr. Castellani. We receive very substantial support from 
both Louisiana, Mississippi and growing support from Texas. It 
has come in a number of forms.
    Obviously, the training is being done at the local 
community colleges and technical colleges, so they have been 
very much involved, the local departments of labor, the local 
departments of response. The governors have been very involved. 
Some of the States have been very involved. So it has been a 
very broad-based governmental response on the local level to 
help both recruit, train, and place these graduates of the 
training program and their jobs.
    Mr. Dent. What has been your greatest obstacles in training 
up to 20,000 displaced or disadvantaged workers?
    Mr. Castellani. The two biggest obstacles that we face are 
ones that we should be able to fix. That is, under privacy 
restrictions that the colleges operate under right now, we 
cannot get direct access to the trainees who graduate so that 
we can place them with the jobs that are available; and that 
was something we need to work on.
    The second is the program that has been running this and 
will expire at the end of this year, and certainly it has been 
very valuable at a relatively low cost, so when we are done 
with the 20,000 there will still be more that will be 
necessary, but we would urge that the programs continue, the 
pathways, so the construction program continues.
    Mr. Dent. And how does the Initiative's efforts and success 
in Mississippi differ from the Initiative's efforts and success 
in Louisiana?
    Mr. Castellani. There have been more participants in 
Louisiana than there have been in Mississippi to date. That has 
been the focus of a lot of the activity. Of the 5,000 that have 
been trained, 3,500 have been from the State of Louisiana and 
the other 1,500 from Mississippi.
    What we need to do on our part, and what the State 
recognizes, both States recognize, and now what Texas is also 
assisting in, is doing a better job in locating those people 
who are displaced and getting them into these programs.
    Mr. Dent. And to Ms. Baskerville, in your written 
testimony, you propose that a percentage of DHS laboratory and 
research and investment should be dedicated to Historically 
Black Colleges and Universities that were ravaged by Katrina. 
Assuming that Katrina-ravaged black colleges and Universities 
are not fully recovered, what time line to you believe would be 
appropriate for these Universities to begin receiving dedicated 
DHS research funds?
    Ms. Baskerville. I think now is the time to receive the 
research funds. Dillard and Xavier are up and functioning. 
Dillard and Xavier have particular strengths in areas of 
interest to the Homeland Security Department. So the funds 
could come now, and along with the funds will come their 
increased ability to serve.
    It is a catch-22. If you say wait until they are up to 
their full capacity, but there are no resources to get them 
there, they will not, but if we infuse resources now and they 
are ready to receive, they can build and step in and meet some 
of our immediate needs.
    SUNO is another situation. SUNO, the campus is still 
displaced. The students and families are still living in 
trailers. They have not yet returned to their campus. They are 
in immediate need of some rebuilding so that they can go back.
    If I might, sir, I want to draw particular attention to 
SUNO. It is the only public institution in New Orleans 
dedicated to educating large numbers of traditionally 
underserved students. Their student population is 
disproportionately those from the Ninth Ward. These families 
are still displaced. The institution is still not up to speed.
    So one thing I would urge and encourage is that Homeland 
Security and the resources that are available through that 
department be brought to bear to put these students into their 
education environment. To the extent that they are able to 
return, their communities will return. These are not students 
from all around the country. They are students from the Ninth 
Ward. So if they are able to return, the economy will be 
stimulated. Health services can return and the like. There will 
be a rippling impact.
    Mr. Dent. Thank you. I will yield back the balance of my 
time.
    Chairman Thompson. I will now yield 5 minutes to the 
gentleman from North Carolina, Mr. Etheridge.
    Mr. Etheridge. Thank you.
    Let me thank our panelists for being here. We all know we 
are about roughly 10 days now from what is classified as the 
start of hurricane season, and those who live in North Carolina 
know what that means. We have been fortunate in the last couple 
of years, last year, but not sure that will be the case again 
this year.
    We saw in Hurricanes Katrina and Rita, which was an 
unprecedented disaster in this country's history, but also we 
saw public community response which was also unprecedented. Not 
only did professional and volunteer first responders, who were 
our front line to face this kind of emergency, come to the aid 
of the people in the gulf region, but a lot of the private 
individuals went, a lot of faith-based groups showed up.
    Many took time from their careers, students took time from 
their studies, and several of you already noted that students 
were the first to move the grass roots organizations, some 
newly formed, some are well-established. And the list goes on.
    My question to Mr. Johnson is this. What role did grass 
roots organizers have for the ongoing needs of the region and 
what are some obstacles that they faced in the beginning versus 
the obstacles that they face now and how can these obstacles be 
overcome? You alluded to that in your opening statement.
    Mr. Johnson. I think that, to really cut to the chase, the 
obstacles in the beginning were really about trying to assess 
where they could have the greatest impact, where they wouldn't 
just be spinning the wheels and where in the midst of this 
cadre of needs in very specific communities that varied in many 
ways how could they have impact, as opposed to just scurrying 
around.
    Mr. Etheridge. Because they are so overwhelmed.
    Mr. Johnson. Absolutely.
    I think, over time, the organizations that have lasted and 
have been able to continue have been able to become niche 
organizations that have identified specific communities where 
they need to provide service, have been able to identify 
specific populations that need service and been able to create 
the relationships whether they are with the private sector or 
whether they are just pulling together community folks to keep 
that going.
    I think what the real need is at this point, you have the 
commitment, you have the competence, but there needs to be 
capacity, capacity building to ensure consistency and service.
    So what the organizations are in need of now is the 
assistance of building that capacity, whether it is in creating 
the partnerships that bring in financial resources, whether it 
is training to increase the expertise of the staff that has had 
to encounter things they never thought they would encounter 
before, and whether it is beginning to build I think networks 
that are already there but creating larger and broader networks 
between very grass roots individuals that have their hand on 
the pulse of the community and those that have the greater 
capacity to be able to provide assistance.
    Mr. Etheridge. Thank you.
    Mr. Castellani, you talked earlier about building--the 
focus has been on the building of infrastructure for the future 
of the gulf region, which I happen to agree is critically 
important.
    My question is this: How are you supporting the enterprises 
that came in to fill the need in the early days following the 
disaster; and, second, you have talked about the training that 
has taken place of building that capacity. What steps are being 
taken to ensure that your efforts are sustained so that these 
workers who were trained can find jobs in the region and meet 
over the long term? I think that is a critical part. It is one 
thing to train them and get them there now, but more 
importantly over the long term.
    Mr. Castellani. Let me answer the second part of the 
question first.
    Our effort was focused on getting the first to 20,000. What 
we need to do is transfer the intellectual property that we 
have collectively developed in the part of this program to an 
organization that can continue it, and there are some 
opportunities to do that. We have identified those 
organizations.
    The jobs themselves right now have been predominantly in 
rebuilding industrial facilities. That is where most of our 
graduates have gone. They have not yet seen large amounts, we 
have not yet seen large amounts go into residential 
reconstruction which will come afterwards, but they have the 
skills to have a very good job and continue to improve those 
skills.
    Mr. Etheridge. Because if you do it in the infrastructure, 
which will be water and sewer, you can't build the residential 
communities until you get infrastructure in place, as you and I 
both know.
    Mr. Castellani. One of the biggest dilemmas we have had is 
where do you house the workers to build the housing that 
workers need or build the infrastructure that the workers need. 
That has been a significant challenge, and that model is coming 
together.
    Mr. Etheridge. Because the long term is going to be 
critical for a long-term creation for job creation in the 
region.
    Mr. Castellani. Absolutely. And these are skills that can 
be built on. They come out with basic skills. They can improve 
in the specifics of carpentry, electrical, plumbing, welding, 
and continuing to improve those skills.
    Mr. Etheridge. Thank you.
    Ms. Baskerville, you mentioned there is a disproportionate 
burden on students in the response, obviously, especially at 
the HBCUs. My question is, as you look at that, as I happen to 
have two in my districts, Shaw and Federal, State, but as you 
look at that, what can Homeland Security do to ensure that our 
Nation's colleges are prepared for the next disaster? Because 
it will come. We just don't know when it is going to come.
    I think what we need to know is, we may not get back and 
fix the problem. We have to go back and work on it. But what 
can we do to be ready for the next one? Because it probably 
will happen.
    Ms. Baskerville. I propose and in my written 
recommendations I suggest that Homeland Security, through 
NAFEO, prepare HBCUs to serve as first responders in all of the 
emergencies. So whether it is the natural disaster or a man-
made disaster, our institutions are resources, and I want 
Homeland Security to look at them as valuable resources. We 
have engineers and architects. We have a range of the services, 
health care professionals.
    So I propose that we designate the HBCUs around the 
country. We are in 25 States, the District of Columbia and the 
Virgin Islands; and we designate the HBCUs as first responders, 
train a cadre of people there who then become trainers in their 
respective communities.
    I suggest that that is important, and it makes sense 
because of their strategic locations in areas that are either 
hardest hit by natural disasters or are prone to man-made 
disasters because of their location. And we have the data and 
some charts and graphs that will show that.
    Mr. Etheridge. Thank you very much.
    I yield back.
    Chairman Thompson. Thank you very much.
    I would like to ask Mr. Castellani--did I get it correct 
that time?
    Mr. Castellani. You did.
    Chairman Thompson. I know you have been called a lot worse, 
but I apologize for mispronouncing your name.
    One of the issues that Mr. Etheridge and some people have 
alluded to is this notion of a civilian disaster recovery 
person within the Department. You know, we still have thousands 
of people who are displaced because of Katrina and Rita; and 
there is no real focus, some of us think, from the Department 
to get these people back. And that is because no one in the 
Department has that mission. Where do you come down on this?
    Mr. Castellani. Well, Mr. Chairman, we have focused our 
efforts in two areas: One has been the immediate response. That 
is what our Disaster Response Task Force had been established 
to do, to mobilize the resources of our member companies, 
whatever was needed in the initial response. That has presented 
us with some significant challenges, particularly in the 
coordination between the Federal, State and local providers for 
meeting the needs. But we continue to work on those.
    We undertook this effort in training skilled construction 
workers because our members were looking at the communities, of 
their facilities, their employees, that had been destroyed by 
the hurricanes and recognized that there were not enough 
construction workers to rebuild not only the facilities or the 
plants and the equipment that they own but the communities of 
the workers and the communities that their families 
participated in.
    We have not been involved in the long-term reconstruction 
beyond that. So I really do not have an expertise in what the 
Department can do to help that.
    Chairman Thompson. Mr. Johnson, you want to take a stab at 
it?
    Mr. Johnson. I would be willing to say as well I don't know 
if my expertise is there, but I do believe and I think that 
what in many cases is missing, and I step back because I just 
spent a great deal of time in Liberia, and I mention Liberia 
because the conversations that they are having right now is how 
do we bring back these hundreds of thousands of--tens of 
thousands of citizens who have been in Ghana, who have been in 
Nigeria, during the time of the war. And I believe that there 
has to be someone in place within the Department that deals 
with the logistics of that.
    But I think that, as we look at the reality of the region, 
that it still has to be so connected to much of the work that 
has to be done. We do ourselves a disservice to talk about how 
do we bring back thousands of people into areas that are not 
prepared to receive them. So I think while that person is 
necessary to deal with the long-term logistics and strategy of 
returning people to the region, if it is not strategically 
directly connected to the rebuilding effort, to the creation of 
jobs, to the rebuilding of communities, then we are organizing 
people to bring them somewhere that is not prepared to receive 
them.
    Chairman Thompson. Thank you.
    I will now recognize Mr. Reichert for 5 minutes.
    Mr. Reichert. Thank you, Mr. Chairman.
    And thank you for being here today and sharing your 
testimony.
    My background is in law enforcement, 33 years with the 
Kings County Sheriff's Office in Seattle.
    My question, first question, is are any of you on the panel 
familiar with the acronym CPTED, Crime Prevention Through 
Environmental Design? Your law enforcement agencies in 
Mississippi and Louisiana and those areas I think might be 
familiar with this term.
    I think it is a great opportunity for all of you to engage 
in. This is something that is a nationwide program. So as you 
rebuild businesses, buildings, as you rebuild neighborhoods, 
you look at building those structures in a way that helps 
prevent crime.
    But it can be extended to include preventing or going back 
to mitigating the impacts of another Katrina or some other sort 
of disaster. So as you design and build buildings and roadways 
and freeways, CPTED can be applied to that. And you can 
probably have another name for that. But I think it is 
important, as you look at rebuilding your communities, CPTED 
discussion would be a valuable one, considering the crime rate 
that we have heard about and the difficulties therein in 
addressing crime issues.
    Mr. McDonald, Governor Barbour created your office. Can you 
describe kind of your day-to-day activity and how you managed 
the recovery and renewal project?
    Mr. McDonald. I would be glad to.
    Our office was created immediately after the disaster; and, 
as I am prone to say, and those who know me would concur, I am 
no rocket scientist. It is about getting the job done. It is 
about getting the folks in the same room, setting up 
measurements and having accountability.
    It is a win-win agenda; and we certainly, as I often say, 
God bless you, and I love everybody, but we have got to get 
this done. We have that can-do attitude and with that spirit, 
we have--actually, we have everyone in the State as well as our 
Federal partners who will report on a weekly basis. Every 
Friday, we have a good old tent meeting at the Governor's 
Office where each of these programs are reported on and we look 
at measures and measure where we are, where we are going and 
what the barriers are. And part of the opportunity is to 
address some of those barriers.
    So the office was originally created to provide a vehicle 
for the efficient deployment and coordination of funds and 
resources, but, also, Congressman, it was created to provide 
hope. Immediately after the disaster we had--through the grace 
of the good people of the country, we had some of the premier 
design professionals that lent themselves to the design turrets 
that we had in October of 2005 when we sat down with community 
leaders who had neither a pot in their window at that time but 
needed the ability to see what tomorrow could look like with 
encouragement, and that became the foundation for our 
department plan. And as we seek to continue to carry that out, 
we do that through a series of active measurement and 
accountability.
    I will also add that FEMA will play an active role in that. 
Immediately after the disaster, FEMA, through its function, met 
with the various districts and identified recovery priorities, 
and we have continued to remain engaged with FEMA in asking 
them to provide resources, which they have done. But additional 
resources were needed to fulfill that plan that they put 
together as a roadmap for recovery.
    Mr. Reichert. That was going to be my next question, is 
your relationship with FEMA.
    So I am going to assume that since you are talking about 
performance measures and barriers and designs, that those 
performance measures and barriers are documented in some hard 
form or on the computer somewhere. Would it be possible for us 
to get a copy of those performance measures and barriers?
    Mr. McDonald. Absolutely. I would be more than glad to do 
just that.
    Mr. Reichert. When you said FEMA set some recovery 
priorities, is that also in a format that we might be able to 
receive that?
    Mr. McDonald. I believe some 94 objectives were identified 
and in cooperation with FEMA experts through the ESF-14 at the 
various local jurisdictions, and those were adopted and 
ratified by the local governing entities, and so those are a 
component part of what the community in working with FEMA have 
identified as recovery objectives.
    Mr. Reichert. If I could have one quick follow-up.
    On the priorities, I would assume then that there were some 
filters that were used to develop those priorities. The filters 
also--are they in use as you continue through your day and try 
to address the recovery issues, as you look at which priorities 
do you address first?
    Mr. McDonald. And those are driven at the local level. We 
are in active communications. As a matter of fact, Ashley 
Edwards, one of my policy advisers on the coast, lost a home, 
has been there since day one. And we work daily, six days a 
week--actually, with six and a half days. Sunday morning we 
asked to be off, if we can, to remove those barriers.
    We are working, Congressman, at a feverish pace. We 
generally believe what I have said in the testimony, that the 
window is closing in our ability to get things done. We 
recognize that the next disaster will bring a change in this 
landscape.
    Mr. Reichert. Thank you, Mr. Chairman.
    Chairman Thompson. Thank you very much.
    We now yield for 5 minutes to Mr. Carney.
    Mr. Carney. Thank you, Mr. Chairman; and I want to thank 
the panel for showing up today. This is very interesting.
    Mr. Castellani, in your testimony, you stated that the 
Business Roundtable works closely with the Department Office of 
Federal Coordinator. What should the Department do to ensure 
the ongoing success with programs like this initiative?
    Mr. Castellani. One of the things that has been addressed 
several times has been the issue that has faced us the most, is 
we have both done the near-term responses as well as the long-
term response; and that is the ability to identify needs where 
they occur, how they can be met. In other words, the basics of 
supply chain management.
    What we think can be improved and should be improved is the 
ability of the Department to coordinate that capability.
    Mr. Castellani. In fact, after Katrina and after the 
corporate response to it, we created a special study group that 
was headed up by Ken Chenault of American Express, and that was 
the single biggest issue that all of our member companies 
pointed to as being a frustration in response, and that is the 
inability to have a clear supply chain management 
infrastructure from the Federal level right down to the ground 
at the immediate need level. So that is probably the biggest 
thing that we would recommend for the Department to do, and I 
think that is a work that still needs to be done.
    Mr. Carney. So, in your opinion, that would help ensure the 
success well into the future?
    Mr. Castellani. We believe so. I mean one of the things 
that we had seen time and time again was the inability to match 
the capability with the need because there was no central point 
and coordination between central and disperse points in being 
able to identify that need and communicate it.
    Mr. Carney. I understand. Thank you very much.
    Ms. Baskerville, you stated that HBCUs are uniquely 
situated and often service first responders in surrounding 
communities. Can you elaborate a little bit on that?
    Ms. Baskerville. They are located in Tornado Alley. They 
are in areas that are prone to hurricanes. So natural 
disasters. They are in the Southeast. They are along border 
States, and they are in those types of areas, but in terms of 
other potential types of emergencies, they are either located 
in rural and remote areas, areas of high distress, 
traditionally underresourced, or they are in urban areas, by 
and large, areas of high distress, traditionally resourced, and 
they are around the types of capitals and other facilities that 
would make them not only prime targets for attacks but prime 
resources for strengthening the community and protecting the 
community.
    Now, in order to get to that point, they are--
    Mr. Carney. Well, in what ways? In what ways?
    Ms. Baskerville. I am sorry?
    Mr. Carney. In what ways are they the prime sources of 
strengthening for the community?
    Ms. Baskerville. Because of their location and their 
resources in the form of faculty, staff, administrators, and 
students, others who need training, and that goes to my second 
point and the most important point.
    Presently, they are not and they have not been designated 
as disaster-resistant institutions. However, with resources 
from Homeland Security, there is a need and a willingness to 
make them disaster-resistant campuses, to provide them with the 
training so that they can then train trainers and serve as 
first responders for their communities.
    Mr. Carney. OK. Thank you very much.
    Mr. McDonald, you talked about the destruction of small 
businesses in Mississippi. How many of these businesses have 
been restored?
    Mr. McDonald. Well, Congressman, I do not have specific 
numbers on the number of businesses that have been restored, 
but I can give you the feel of the landscape.
    I think one of the questions earlier was about repopulating 
and how do you get folks back, and I would suggest that it is 
through jobs and housing. Our small businesses were a part of 
and are a part of this recovery, and as we are able to restart 
the engine, as we are able to deploy the dollars that have been 
made available, those small businesses are able to enjoy 
vitality and success.
    Mr. Carney. I appreciate that.
    Can you provide the committee at some point not too far 
down the road a list of, certainly, kind of raw numbers of 
those that have applied versus those that have been put back on 
their feet in the meantime?
    Mr. McDonald. Absolutely.
    Mr. Carney. I would appreciate that.
    Mr. Johnson, finally, I appreciate your testimony, and I 
have kind of a broader question.
    Can you describe some of the recent struggles, the more 
recent struggles, you have seen in the areas ravaged by the 
hurricane?
    Mr. Johnson. Recent struggles of the organizations trying 
to provide services or the community members, themselves?
    Mr. Carney. Both.
    Mr. Johnson. Well, I think that we still see not only in 
Mississippi but also in New Orleans an inability to gain access 
to communities that were abandoned whether it is homeowners who 
have a difficult time getting insurance payments, dealing with 
insurance companies, whether it is those who do not have the 
resources to come back to a community where they have been 
homeowners for decades and who are willing to at least begin to 
assess what the real costs would be to rebuilding. Many 
families still do not even have an idea of what the cost would 
be to rebuild because they have not been able to gain access 
due to a lack of resources, but then we are also seeing very 
basic needs. So the reacclimation of students into schools and 
the reality that--I think there has been a conversation about 
emotional stress and mental stress with schoolchildren 
especially. That has not been adequately dealt with. So we have 
young people who are attempting to be reacclimated into public 
schools but who are still dealing with stresses of this 
unbelievable experience that no one is talking to them about, 
and the organizations that are on the ground in many cases are 
still dealing with staffing capacity issues. So I cannot 
reiterate enough the fact that I think that there have been 
people who have been on the ground since week one and who have 
stayed on the ground with very little compensation and very 
little capacity-building resources from their organization 
speaks to the commitment level. They have been able to create 
niches in different service areas, which speaks of their 
ability to evolve to the situation, but there really has to be, 
I think, a more concentrated effort on strategic partnerships 
that target specific areas with very clear deliverables and 
areas of impact to ensure, from the corporate level to the 
policy level to the grass roots level, that we are creating 
these comprehensive partnerships that have very clear 
deliverables and timelines that I think will have a greater 
impact than some of more sporadic and loose partnerships that 
we have seen exist up until this point in time.
    Mr. Carney. Thank you very much.
    No more questions, Mr. Chairman.
    Chairman Thompson. Thank you very much.
    I will now yield 5 minutes to the gentleman from Texas, Mr. 
Green.
    Mr. Green. Thank you, Mr. Chairman.
    Mr. Chairman, I especially thank you for this outstanding 
panel. We have been served quite well by their insight.
    Let me start by indicating that I am very concerned with 
the rate of progress, as is the case with all persons here, I 
am sure, when we understand that Congress has appropriated $110 
billion and half of that remains unspent. $17 billion has gone 
to the Department of Housing and Urban Development. 
Approximately $1.7 billion has reached the actual victims of 
Katrina; $42 billion to FEMA, $25 billion spent; $5.8 billion 
to repair levies, $1.3 billion spent.
    So we have appropriated a lot of money, and we are finding 
that a lot of money has not been spent. Now, I understand that 
we did not have a paradigm in place for this kind of disaster, 
but I am concerned with reference to how is it that we can 
promote the most expeditious utilization of the assets that 
have been made available.
    It seems to me, just based upon what you said, Mr. Johnson, 
that somebody ought to understand that we need to spend some 
money on counseling. I have talked to people who have tears 
welling in their eyes when they have explained their 
circumstances, and I am talking about recently that it happens. 
In Houston, Texas, we had children who had come in from 
Louisiana and from New Orleans, and they had their various acts 
of friction with kids from Texas--the two cultures, in a sense, 
were clashing--and it just seems to me that we should have done 
more to understand that the human condition is still in a 
recovery mode, and while we can rebuild facilities, we have 
some people who need some rebuilding as well.
    I want you, if you would, to say just a little bit more 
about your experience with the kids and with their ability to 
try to handle these circumstances post Katrina.
    Mr. Johnson. Well, I think it is existing on a number of 
levels, and I think you mentioned one of them.
    If we are dealing with older children and issues of 
violence in communities where there has been one group that has 
merged with another group, I think we do a disservice to--I 
think I hear too often the title of ``these crazy people from 
New Orleans'' or ``these gangster people from New Orleans'' or 
whatever the term is. I do not often hear us dealing with the 
reality, especially in a city like Houston, where there were 
already poor people who were struggling for resources in the 
city, and now you have exacerbated that by adding another group 
of poor and displaced people who are now fighting for the same 
housing, the same jobs but with little, I think, interaction 
with them on that human level and the counseling level, but 
there is also a lack of resources information that is provided 
for them to understand the process. So I think that is part of 
it.
    To directly answer your question, I have dealt with more 
college students than anything else, and I think college 
students have been ignored on a number of levels because they 
are viewed, in many cases, as adults who have the flexibility 
to move and to do something different, but the reality is they 
have had to deal with the psychological effects of losing 
everything, of being displaced from academic careers that in 
many cases are now difficult to get back on track, who are now 
dealing with exacerbated financial issues and being unable to 
concentrate in class because ``I am getting ready to lose the 
3-month grace period on my student loan that is going to 
default.''
    Mr. Green. And I do want you to finish, but I want to ask a 
couple of other questions. I have got about 32 seconds left. 
Quickly, let me ask Mr. Castellani:
    What is the gender and the ethnicity of the people who are 
being served?
    Mr. Castellani. They are predominantly minority, 
predominantly African American.
    Mr. Green. And gender?
    Mr. Castellani. Predominantly male.
    Mr. Green. Quickly to Mr. McDonald.
    Mr. McDonald, sir, your paradigm seems to have succeeded to 
a greater extent than some other paradigms, and my question to 
you is: What did you do at Genesis such that you now have a 
better experience at Revelations?
    Finally, to Ms. Baskerville, the politics of this have not 
been properly addressed. We still have people who cannot vote 
in Louisiana who are living in Texas. What can HBCUs do to help 
us to develop a paradigm such that we can make sure no one is 
disenfranchised? When we can have satellite voting in other 
countries around the world, it would seem to me that there 
ought to be a paradigm that can accommodate people who live 
across the line in Houston, Texas such that we do not see the 
face of the politics change by virtue of the natural disaster 
that, obviously, we want to try to recover from.
    I yield back the balance of my time. Hopefully, I can hear 
some answers. Thank you, Mr. Chairman.
    Mr. McDonald. If I might, Mr. Chairman. I can briefly 
answer your question, Mr. Congressman.
    I would say that, with Genesis to Revelations, one of the 
things that Mississippi did was that Moses came down from the 
mountain with the Commandments. The Governor came down with a 
very clear understanding and tone, and there was measurement 
and accountability, and we are all very clear that the rapture 
will come if we do not meet those expectations, and it is with 
that focus that with what we can control that we internally 
work with our State partners and our Federal partners to 
identify those barriers on a weekly basis. I know you are tired 
of hearing me say that, but on a weekly basis, what is our 
progress? Where are we going? What is the barrier? What can we 
do about it? It is a sustained focus.
    Ms. Baskerville. NAFEO has worked and is continuing to work 
with the National Black Caucus of State Legislators and with 
others to engage our students in particular but others on the 
campus in helping to identify and, first of all, return those 
persons who can go back to the New Orleans area so that they 
can participate in the electoral process.
    We presently have a request for funding that would enable 
our students to go out and help count heads with the census so 
that we can identify people who have been removed and, most 
importantly, reconnect them with their home base so that, in 
turn, they will be able to get the type of Federal resources 
and other things that flow from the census count.
    In the election that just passed, we sent teams of workers 
from our campuses, not only at Prairie View and Texas Southern 
but others in Texas and others around the country, and we are 
continuing to do that, and I agree that we have to play, and we 
are, again, well-situated, well resourced. We have people who 
we can put on the ground at any moment to do that. Many of them 
come from the affected communities, and so they are well-
received.
    Chairman Thompson. Thank you very much.
    We now recognize the ranking member for 5 minutes for 
questions.
    Mr. King. I thank the chairman for yielding, and I will not 
take my 5 minutes. I was delayed in New York, and I missed the 
first part of the hearing. I read some of the testimony, and I 
have been going through the statements. I have just heard part 
of the hearing today.
    So I just want to thank you, Mr. Chairman, for having the 
hearing. It is, obviously, an issue which must be addressed. 
Nothing bothers me more than people who parachute and ask 
questions that have already been asked or ask and go back over, 
so I am not going to impose any questions on you.
    I will thank you for your testimony today. I will thank the 
chairman for having the hearing and assure him of my 
cooperation and the cooperation of the minority in working with 
you as we go forward in dealing with Katrina.
    I yield back.
    Chairman Thompson. Thank you very much. That was a fine 
comment you made.
    We will now recognize the gentlelady from New York, Mrs. 
Lowey. Mrs. Christensen is going to take the chair.
    Mrs. Lowey. Well, OK.
    Well, let me thank the chairman, too, for holding this very 
important hearing. I wish we could get the job done and stop 
having the hearings on it, Mr. Chairman. This has been going on 
for a long time, and I appreciate your activism on these 
issues, and I thank the panel for your testimony.
    One of the many problems that is brought to my attention is 
the inability to find affordable housing on the gulf coast. 
More than a year and a half after Hurricane Katrina, more than 
90,000 families, as we know, are still living in trailers, and 
this is outrageous. It is not acceptable. It seems to me that 
we have to really work to transition people to permanent 
residences and do everything we can to facilitate the repair 
and the construction of affordable housing.
    A specific problem that I have noticed is that landlords 
are largely unable to receive grants to repair property which 
is not their primary residence, and this means that anyone who 
rents low--or moderate-income housing to tenants must be able 
to secure a loan to make necessary repairs before a displaced 
family can find a more permanent place to live.
    I have been working on legislation to address this issue to 
provide assistance to landlords who will make repairs and 
provide affordable housing for displaced individuals. Pre-
Katrina renter levels in New Orleans were over 50 percent. So, 
essentially, these former renters are homeless.
    Mr. McDonald, in your experience in Mississippi, have you 
noticed problems associated with landlords not being able to 
rebuild the units for their tenants because they have financial 
hardship?
    Then I would be interested to know if anyone else on the 
panel could comment on this issue.
    Mr. McDonald. Thank you, Congresswoman, for the question, 
for the inquiry.
    We certainly have. It is only natural that the first level 
of focus for the local landlord is taking care of their house 
and getting that back into good shape. What Mississippi has 
done through the use of its CDBG monies is we are currently in 
the public comment period. We have 3 days remaining in our 
public comment period where we are seeking with some $150 
million worth of CDBG money to incent the construction of 5,000 
affordable rental homes. In order to participate in the 
program, an eligible applicant would have to, among other 
things, commit to keep it affordable for a 5-year period as the 
plan is currently drafted, and those affordable rates are as 
defined by HUD and would apply to those at 80 percent of the 
AMI or below. There is a provision where, based on the number 
of units constructed, a portion of those could be for 120 
percent of AMI or below but certainly affordable housing. We 
are very excited about that plan, and we really genuinely 
believe that that is a critical part of a solution but also in 
bringing some peace to the folks who we find who cannot locate 
or would like to secure that affordable housing who are still 
occupying FEMA travel trailers, you know, some 2 years after 
the disaster.
    Mrs. Lowey. Now, a good portion of your testimony mentions 
Global Match and issues surrounding non-Federal match 
requirements. After Hurricane Andrew and September 11th, the 
Federal Government waived the 25-percent matching requirement, 
and it is unbelievable that the administration has not chosen 
to take the same step after the unprecedented amount of damage 
sustained along the gulf coast from Hurricane Katrina.
    Could you comment on how would a waiver for non-Federal 
cost share requirement speed recovery, and has Governor Barbour 
requested that the administration waive the requirements?
    Mr. McDonald. Well, to distinguish between the issues--and 
they get rather muddy quickly--but the PA match, the public 
assistance match, and the Global Match are two separate and 
distinct issues. Of course, Mississippi has set aside the 
monies for its PA match. The foundation for that, of course, in 
this disaster were that PA monies were paid at 100 percent for 
categories A and B, the nonpermanent work, so there is no match 
for that work. In Mississippi's case, in round numbers, that 
was about $1 billion of our $2 billion PA obligation. So, for 
that portion, there is no local match required, and that is why 
I suggested it in my testimony as one of the reasons why we are 
eager to see that those PWs are closed out and moved forward.
    For the permanent work, of course the issue of match is 
that of good stewardship and cost control, simply stated, that 
the local community has an investment, an economic investment, 
in making sure that the best deal that can be obtained is 
obtained in the procurement of that work. We have worked with 
our local communities and continue to work with them on the 
issues that present themselves, but the hazard mitigation 
money, the 25-percent Global Match for hazard mitigation, is 
one that I, as a numbers person, really struggle with because 
this is an option that FEMA has provisions to allow, and we 
really would like for them to embrace that and to work with us 
to remove the barriers to removing that, some $135 million 
worth of obligations from the backs of the locals.
    Mrs. Lowey. Well, I thank you, and I see my time is up. I 
would just be interested in if you see any movement, any 
response to this request.
    Mr. McDonald. At present, we have had good conversation at 
all levels, and I mean that sincerely. They have responded--we 
truly do work 6-1/2 days a week. As a matter of fact, at the 
conclusion of today, I hope to have additional conversation on 
just the Global Match issue. It is a policy interpretation that 
FEMA is struggling to get right, and we certainly want to 
assist them with that.
    Mrs. Lowey. Thank you.
    Thank you, Madam Chair.
    Mrs. Christensen. [Presiding] Thank you. Thank you for your 
questions. I would like to welcome the panel and recognize 
myself for 5 minutes.
    I just want to join my other colleagues in just voicing my 
frustration with some of the slowness that we have seen, 
particularly in New Orleans but also in Mississippi in our 
recovery, and I just recently received this update on New 
Orleans, May 2007, and there is still so much that needs to be 
done. I have one question for each of you.
    Mr. Castellani, I think you answered it to Mr. Green about 
the ethnicity and gender. My question was more to what percent 
of the people or how many of the people you are training are 
from the affected areas.
    Mr. Castellani. Almost all.
    Mrs. Christensen. Almost all. OK.
    The program sounds like a very good one. Is it one that you 
think should be replicated? You talked about some of the 
programs you use. Some businesses have funded some parts. Labor 
has funded others.
    Are there enough programs already in place to replicate 
this someplace else or should we look at creating something?
    Mr. Castellani. No. I think the experience--the programs 
are there. The experience that we have gained in working with 
the States and in working with the community colleges and in 
working with the municipalities is something that should be 
transferred around the country. This is not just a shortage in 
the gulf region; it is a shortage around the country but 
exacerbated by the hurricanes. More importantly, it is an 
opportunity for people who had no skills to get a well-paid, 
highly skilled job.
    Mrs. Christensen. Thank you.
    Ms. Baskerville, it is good to see you. I remember our 
meeting in New Orleans at your annual conference back a few 
years ago, and you have come a long way since then even though 
I know we have a lot more that needs to be done, so I want to 
congratulate NAFEO on your hard work and your leadership over 
these last couple of years.
    Ms. Baskerville. Well, I want to thank you and thank you 
for the giving of your time to come down and to be a part of 
the field hearing that we were having at the time when we heard 
firsthand what was going on, not only with the HBCUs but with 
the community and particularly those least advantaged, but I 
thank you.
    Mrs. Christensen. We will be back.
    Ms. Baskerville. NAFEO is looking forward to having our 
Presidential Peer this summer in your district, and we are 
hoping we will see you there.
    Mrs. Christensen. Great. You know, my question to you is--I 
have been dealing a lot, as you can imagine, with the health 
community, and a lot of doctors had to leave, and other health 
professionals had to leave, and some of them have not been able 
to return.
    Have most of your teachers, your professors, your faculty 
returned?
    Ms. Baskerville. Many of them have returned, and some have 
returned with the assistance from the National Institute of 
Minority Health. We are at about 80 percent capacity. Then we 
have had some health professionals who were not in the 
immediately affected area who have come in who are offering 
physical health, mental health and other types of--
    Mrs. Christensen. But your faculty has come back?
    Ms. Baskerville. About 80 percent of our faculty has 
returned.
    Mrs. Christensen. That is good.
    Mr. McDonald--
    Ms. Baskerville. May I just respond for one moment on the 
question to Mr. Castellani?
    Mrs. Christensen. Sure.
    Ms. Baskerville. I want to offer, in the event that he does 
not know, that the City College of Chicago, which is a NAFEO 
member, has one of the country's leading programs to train 
diverse construction workers, and I am sure you are connected 
with them, but if not, I would love to connect you with 
Chancellor Wayne Watson and involve them because they testified 
at the hearing in New Orleans and said that they stand ready to 
not only help to train folks but to involve many of those who 
they have trained in the rebuilding effort.
    Mr. Castellani. Great.
    Ms. Baskerville. Thank you.
    Mrs. Christensen. OK. Thank you for adding that.
    Mr. McDonald, in your testimony, you talked about housing 
and education and small business. I wanted to ask a question 
about your health care system.
    New Orleans was pretty well wiped out. Was it not as bad in 
Mississippi? Wherever you were right after the storm, where are 
you in terms of your recovery?
    Mr. McDonald. Madam Chair, I cannot speak in direct 
comparison to New Orleans. I can tell you my sense is that that 
situation was devastating because, as you know, we faced an 
unheralded hurricane. Louisiana faced, you know, two hurricanes 
and a flood. They were 90 days awaiting water to recede, and we 
were 90 days into recovery. So I really cannot speak to their 
State.
    I can tell you that our health care system was 
significantly impacted, and as a result of Federal resources as 
well as State resources, great strides have been made in 
recovery. In terms of the state of the health care system 
today, I believe that it is much, much closer to where it was 
prior to Katrina, and frankly, I think it has allowed us to 
develop capacity in a more robust health care system.
    However, I can tell you that many of those plans are still 
in the development and implementation phases, and so we are by 
no means where we want to be, but we feel good about the 
direction in which we are moving.
    Mrs. Christensen. Thank you.
    Mr. Johnson, just from experience, we know that if it were 
not for the faith-based and not-for-profits and groups like 
yours, we would have been a lot worse off in the gulf region. I 
was just wondering, since I remember getting calls from the 
National Medical Association and doctors not being able to get 
in to help, did you face many barriers getting in, and what can 
we do to fix that? What would you suggest?
    Mr. Johnson. Well, I think, very early, it was difficult 
getting in. I do not think that would be a problem now. Again, 
for me, I think at this point it is about supporting 
organizations that are on the ground, and so supporting 
organizations that have already been there adds the ability to 
assist those who are coming in because they need an ambassador, 
if you will, to those local communities. So I do not believe at 
this point that there is as much difficulty in getting in. I 
think that the organizations on the ground as well as the 
corporate partners and others have done a good job of 
publicizing themselves enough for those who come in from the 
outside who want to help, but they have a tributary to do so.
    Mrs. Christensen. Thank you.
    Thank you, Mr. Jindal, for allowing Congresswoman Jackson 
Lee to ask her questions so that she can get to her other 
hearing.
    I now recognize Congresswoman Jackson Lee for 5 minutes.
    Ms. Jackson Lee. Let me thank the chairperson of the 
committee and the acting chairperson. I want to acknowledge 
that if there is a champion for the issues of the gulf coast, 
it is our chairman, Mr. Thompson, working very closely with 
Chairman King.
    Allow me to welcome the Alamo Community College, which is 
in the room, and I hope that they are gaining a great deal of 
experience in terms of, hopefully, sensing the concern of this 
committee for what I think is a very crucial issue.
    I do want to express my appreciation, as I begin, for the 
witnesses--Mr. Castellani, Ms. Baskerville, Mr. McDonald, and 
Mr. Johnson. Certainly, as we in a very appreciative way speak 
of Lezli, we thank you so very much for your passion and what 
you have faced over the last couple of months as it relates to 
our universities.
    Let me do this, Madam Chair. I would like to ask unanimous 
consent to put in this series of pictures submitted by the 
Moreau family, of Meraux, Louisiana, that really speak to the 
continuing devastation that is going on. Madam Chair, I ask 
unanimous consent to put these into the record.
    Mrs. Christensen. Without objection, so ordered.
    [The information follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Ms. Jackson Lee. Thank you.
    I then want to take time, if I can put my hands on it, to 
read from an article--and maybe Mr. Johnson is aware of this 
group--that was in the USA Today on Monday, the 21st. Let me 
just read it for the record.
        People--black, white, Hispanics--live without 
        electricity, plumbing and any kind of economic 
        stability. Virtually all businesses, big and small, 
        remain vacant ruins. New Orleans has essentially become 
        America's forgotten city. Although initially only a 
        natural disaster, in its aftermath Hurricane Katrina 
        has exposed the inhumanity of all of our Federal and 
        State governments and the corporate business community.
    So my line of questioning will be, first, to acknowledge 
and appreciate the private sector, but it will be a mountain of 
frustration. How do we get where we have been trying to get for 
2 years? We want to have a magic wand. I do not know if it is a 
magic wand. It is meticulous. It is steady. So I will go down, 
and if I can get cryptic answers, I appreciate it because I do 
have a number of those questions.
    Mr. Castellani, I know that you are dealing with 
businesses, and my frustration is, of course, that the numbers 
of small--and medium-sized minority businesses who are still in 
Houston, for example, are not able to access funds. How do they 
access you and what you are doing?
    Mr. Castellani. Well, they can access us through any of the 
partners if, in fact, for our activity they need workers who 
can help in reconstruction. Specifically in Houston, our 
partner is the Houston Business Roundtable and the Houston 
Community College System. So, if they access that or call us at 
``1 (800) IMGREAT,'' we will get that--
    Ms. Jackson Lee. Do you have the percentage of businesses 
you have been able to help or the number?
    Mr. Castellani. The businesses that have been able to help 
in the training--
    Ms. Jackson Lee. No, that you have been able to help or 
those that have been able to access your resources.
    Mr. Castellani. No, I do not.
    Ms. Jackson Lee. Do you know if it is 10 percent or 25 
percent?
    Mr. Castellani. No, ma'am. Our focus is on the training of 
individuals who will then go get employment and who are getting 
employment at construction companies for rebuilding the area.
    Ms. Jackson Lee. Do you know how many of those individuals 
have gone to small--and medium-sized minority construction 
companies?
    Mr. Castellani. I do not know what the break is. No, we do 
not.
    Ms. Jackson Lee. Would you be kind enough to share those 
numbers and possibly share the numbers of the businesses that 
you have impacted by these trained individuals?
    Mr. Castellani. Yes.
    [The information follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Ms. Jackson Lee. Ms. Baskerville, I know that, 
historically, black colleges are strong; they are survivors. 
Let me make mention of the trials and tribulations of those 
students who were holed up, if you will, on the fourth and 
fifth floors, I believe it was, at Xavier who had to be 
literally rescued and who were almost forgotten, and our hearts 
go out to them and to their families.
    What has the U.S. Department of Education done to 
particularly focus on the plight of the black colleges impacted 
or to reach out to your organization to be helpful?
    Ms. Baskerville. Working with NAFEO, the Department of 
Education initially rechanneled its TRIO dollars so that 
dollars could go directly to institutions that were ravaged but 
also to those that were receiving them, because as you talked 
about the students who were displaced and so forth, we 
requested that the black college community incorporate them in 
their campuses, and so the Department immediately stepped up 
and did that.
    Ms. Jackson Lee. And because my time is going, can I just 
do a series?
    Have they continued to help? Can they do more, is the 
question.
    Ms. Baskerville. Well, they certainly can do more.
    Ms. Jackson Lee. For example, as to those individuals who 
find themselves out of school for a semester, have they been 
sensitive to that Pell Grant repayment or loan grant repayment?
    Ms. Baskerville. Yes. They work with us, and we now have 
legislation that allows for special circumstances with regard 
to Stafford and other loans and Pell, and we are continuing to 
work with them on those issues.
    Ms. Jackson Lee. Would you provide us in writing what you 
would hope that the Department of Education could do more of? I 
think it is important. The public-private partnerships, you all 
have done a great job, but I hope that you would focus as well 
on what more they could do.
    If the chairwoman would indulge me, I would like to get to 
Mr. Johnson and just make a statement to Mr. McDonald.
    Mr. McDonald, there was a constituent in my district this 
past weekend from Pascagoula, a senior citizen, who said she 
has not--I do not have her name, but if I can, my office will 
try to get you her card information. She has indicated that she 
is still without dollars to reconstruct her home. I know that 
there is a distinction between people's means. So I will just 
leave that on the table.
    Mr. Johnson, why don't you just do as you have always done, 
truth to power? The private partnership is vital, but could you 
give us three points that the Federal Government has to do, 
from your perspective, before we can get from point A, maybe, 
to point M or to point Z in the alphabet?
    Mr. Johnson. First and foremost, I think there should be 
greater strategy on the ground in one's assessing what needs to 
be done from a housing perspective in particular and job 
creation, second, because I think that, in many cases, it has 
been left to the private sector to create that strategy in many 
cases; two, to be able to identify funds for grants for local 
organizations to increase capacity, provide resources for 
training, that those staffers would be able to increase 
capacity and create partnerships with the Federal agencies to 
ensure that they had the ability to build infrastructure for 
the services that they are providing; then lastly, identify 
dollars and partnerships with both private and public 
institutions to ensure that college students can continue to be 
the army of volunteers who are dispatched, not just to New 
Orleans but to the entire gulf coast region, so that we 
continue to have an army of people on the ground who are 
providing bodies inside and energy to make this effort long-
term and real.
    Ms. Jackson Lee. I thank you.
    Mr. McDonald, one quick question. There are many people in 
trailers. Don't you think it would be better if we could get 
prefab houses on the ground or constructed houses on the 
ground--``prefab'' I would call them--or temporary houses on 
the ground and get them out of these trailers both in 
Mississippi and in Louisiana?
    Mr. McDonald. Absolutely, I think getting them out of the 
trailers in both is primary, and that is something--
    Ms. Jackson Lee. Well, we want to work with both States on 
that, and I am only moving quickly because of the time, but you 
have laid the groundwork. We need to do it.
    Mr. Johnson, you have laid the frustration or the framework 
of the frustration which many of us would like to see expanded. 
The article that I mentioned to you--and I want to put another 
article in as I conclude--was--and I will name the group--a 
group called Emergency Communities, and these were college 
students who came. You are absolutely right. They want to come. 
How can they be protected? When I was there, some of them were 
injured; they had health care issues, of course, because they 
were working hard.
    Madam Chair, may I just put into the record and ask for a 
report again? I have asked repeatedly. This is an article from 
Facing South, No Road Home for Katrina Evacuees. Again, ICF, 
the atrocious lack of action of this contractor. It has to do 
with the catastrophe that tens of thousands of houses remain 
vacant because they have not had the journey home--
    Mrs. Christensen. Without objection.
    The lady's time has long expired.
    I now yield 5 minutes to the gentleman from Louisiana.
    [The information follows:]

The Institute for Southern Studies
FACING SOUTH
BLOGGING FOR A PROGRESSIVE sOUTH
MONDAY, MAY 14, 2007
    No ``Road Home'' for Katrina evacuees
    After Hurricane Katrina struck 20 months ago, it took nearly a year 
before federal and state lawmakers even created a program to help 
homeowners displaced by the storm. As we reported in February 2007 
(pdf), 18 months after the storm Louisiana's infamous ``Road Home'' 
plan --derisively called the ``Road Block'' program by locals--had only 
given money to 97 out of 130,000 homeowners who had asked for 
assistance.
    Thanks to a spending spree in the last month, that number has now 
gone up to 16,000 (still only 12% of the total)--just in time for the 
program to run out of money, as the Washington Post reported this 
weekend:
                The massive federally funded program for rebuilding 
                Louisiana homes is short nearly $3 billion, 
                administrators told a state legislative panel here 
                today, leaving uncertain for now how the owners of 
                roughly 100,000 flood-wrecked houses here will be 
                compensated. [. . .]
                More than 20 months after the Katrina catastrophe, tens 
                of thousands of houses remain vacant, in part because 
                of administrative delays in the air program, the 
                largest single source of direct federal help for 
                homeowners. To date, only 16,000 of 130,000 applicants 
                have received money.
    What's the cause of this astounding failure?
    Many point to the out-sourcing of the Road Home program to ICF 
Emergency Management Services, which received a $756 million, three-
year contract to run it. ICF EMS is a subsidiary of ICF International, 
which has gotten 72% of its work in recent years from federal agencies 
like the Department of Homeland Security. But none of these jobs have 
involved administering major programs for consumers, as the New Orleans 
Times-Picayune reported last December: Typical contracts, according to 
the company's public filings, involved work such as conducting training 
exercises and drills each year to test emergency preparedness in 
regions with nuclear power plants.
    Last year, when it was clear the program was failing, the Louisiana 
state house voted 97-1 to approve a resolution demanding Gov. Kathleen 
Blanco cancel the contract with ICF--but state leaders ultimately 
decided against it because it could involve losing even more money.
    Meanwhile, ICF had done well for itself. After landing the Road 
Home contract last year, they raked in $49 million from a public stock 
offering last October, which had benefits for ICF employees:
                So far. . .the contract has been very good for ICF. 
                After the company went public, it distributed $2.7 
                million in one-time bonuses to 30 of its top managers.
    If only the thousands of families still locked out of their homes 
in New Orleans were so lucky.

    Ms. Jackson Lee. I thank Mr. Jindal for his kindness. Thank 
you.
    Mr. Jindal. I thank my colleague.
    I thank the chairman as well.
    I also want to thank our panel for their hard work and for 
their testimony. I have really got two different sets of 
questions, and I will address them to the entire panel.
    The first set really has to do--I want to build on what my 
colleagues have spoken about today. I know my colleagues have 
been astonished to learn about how long FEMA has known about 
these travel trailers that have been provided to thousands of 
residents in Louisiana and Mississippi, and many of these 
trailers have dangerous levels of formaldehyde.
    What is especially concerning is that FEMA and the EPA may 
have been aware of these health risks for several months. 
According to recent news reports, 83 percent of these trailers 
tested by an outside group, the formaldehyde levels were above 
the acceptable EPA exposure standards. That means, for several 
months, perhaps thousands of families, especially children and 
the elderly, may have been exposed to these toxic fumes, and 
there are health risks.
    So my first set of questions has to do with the level of 
this problem in Mississippi. I know the chairman of our full 
committee has expressed his concern about this issue in 
Mississippi. In addition to that, I know FEMA has allocated up 
to $281 million for the construction of three alternative 
housing units in Mississippi, and I am curious to learn if the 
States intend to use these alternative housing funds to move 
disaster victims out of some of these travel trailers. Then 
finally, on this first question, in terms of working in your 
State, has FEMA been responsive in releasing reports on the 
risks associated with exposure to the formaldehyde or other 
risks in being in these trailers?
    I have got a second group of questions. Let me start with 
that in terms of the danger of the trailers and the efforts you 
all are exercising to move people out of these trailers.
    Mr. McDonald. Well, Congressman, I will try to be brief out 
of respect for the balance of your questions.
    Of course, the primary answer to the travel trailer 
question is getting folks into permanent housing. Now, having 
said that, I am not the first person directly connected with 
the individual assistance, the IA portion of FEMA on the 
formaldehyde issue. I will tell you that I am the first person 
connected with them on getting good numbers on exactly what we 
have in travel trailers right now. That population is the 
population of focus.
    The $281 million that you mentioned in the alternative 
housing pilot program to create the models is well underway in 
deployment. I can tell you that we have dealt with issues 
associated with policy interpretation at the FEMA level. There 
have been some barriers in helping us deploy those as quickly 
as we would want to. We have laid the contract. We have awarded 
the contract to begin the construction of those, and we expect 
full deployment certainly by the end of this year but much 
sooner than that. So that is part of the answer to the 
formaldehyde question.
    I have followed and continue to follow the issue as well, 
and again, our response is we are concerned about getting the 
residents out of there both for mental safety and physical 
safety because 2 years after a disaster, to live in a FEMA 
travel trailer, is just unbearable.
    Mr. Jindal. Absolutely. Do you have any sense of when you 
might be finished moving people out of trailers into permanent 
housing, alternative housing?
    Mr. McDonald. Well, we have certainly set deadlines for the 
alternative housing pilot program, which based on the way the 
bids come in, will create 4,000 to 6,000 units. The deployment 
of that is certainly by the end of this year, and again, I 
expect to exceed that significantly.
    Mr. Jindal. That is great. Thank you.
    I will ask my second round of questions and certainly let 
the panel respond to either set of questions.
    Almost immediately after Katrina, Governor Barbour created 
the Governor's Commission on Recovery, Rebuilding and Renewal 
to identify rebuilding or development options for the State. 
The commission comprised 20 committees--I do not need to tell 
the folks from Mississippi this--which held many public forums 
and whose work culminated in a final report in December of 2005 
with 238 policy recommendations with a range of rebuilding 
priorities and funding mechanisms, and I guess I have got two 
parts to my question.
    The first is: What are the biggest obstacles the State has 
faced in implementing this rebuilding plan? The second half of 
the question--and it is a little bit of a leading question, I 
will admit, but I feel strongly: Would FEMA's--would the non-
Federal match--if they would waive the State match and the 
local match especially with the hazard mitigation grant 
program, if they would just be consistent with what they have 
done in previous disasters, wouldn't that assist the State in 
implementing this plan and assist the State in its recovery?
    Again, I know it is a leading question, and I think you 
know what I think on that question.
    The second half of my question has to do with the plan. 
What are some of the obstacles the State has faced?
    Mr. McDonald. Well, Congressman, I would say the biggest 
obstacles are organizing, sustaining, providing measurement in 
the midst of chaos, and let us recall that in these same 
communities, these folks who are kind enough to sit and plan 
and to set goals for the community are also dealing with the 
issue of no house, displaced family members, all of the issues 
that are present in this disaster.
    Part of our job is to provide that continuity and that 
sustained measure, so I would suggest that one of our largest 
obstacles is remaining on course, working with the Federal 
partners to make sure that we have a coordinated effort where 
HUD, FEMA, the Federal Highway Administration, and various 
other Federal agencies are all pulling in the same direction, 
and that is the direction as defined by the community, not as 
defined from up high, but it is defined by the community. So 
making that a moving work in progress has been something that 
is of great importance and is a priority to us. It is our 
priority. That is what we do.
    The second part of your question on the match, as I stated 
before, is we certainly identified for us $1 million worth of 
RPA money as category A. It is 100 percent money anyway. For 
the remaining $1 billion, that does involve a 90/10 percent 
match. In Mississippi's case, the State picks up 5 percent, and 
5 percent is left to the local, and provisions have been made 
in order to address that.
    In terms of big dollars--and I am a dollars guy--the big 
dollars are in the Global Match, and the request there is to 
allow the work that has already been done to count as that 
spirited-in-kind match. That would be a tremendous step towards 
fueling this recovery.
    Mr. Jindal. All right. I want to thank the panel.
    Madam Chairman, I yield back the balance of my time.
    Mrs. Christensen. Thank you. Did you complete your 
questions? OK. We are about to close the hearing, and I thank 
the witnesses for their valuable testimony and the members for 
their questions.
    Before I close, I would like to say that the CCC was 
critical to building our Nation during the New Deal, and I 
think we need something similar for the gulf coast region. I am 
confident that the Department, through the Office of the 
Federal Coordinator for Gulf Coast Rebuilding, could serve as a 
lead facilitator for a civilian disaster recovery corps, and if 
we continue to develop public-private partnerships and 
recognize the critical role played by states and local 
governments, the gulf coast will recover. The gulf coast will 
be rebuilt. The gulf coast will be revitalized, and the gulf 
coast residents will be able to return.
    Again, I would like to thank the witnesses for their 
valuable testimony. The members of the committee may have 
additional questions for the witnesses, and we would ask you to 
respond expeditiously in writing to those questions.
    Hearing no further business, the committee stands 
adjourned.
    [Whereupon, at 11:55 a.m., the committee was adjourned.]


              Appendix: Additional Questions and Responses

                              ----------                              


          Questions from the U.S. of House of Representatives

         Responses from John J. Castellani, Business Roundtable

    Question 1.: What can the Department do to better engage potential 
collaborative partners?
    Response: Through the Office of the Federal Coordinator for Gulf 
Coast Rebuilding, the Department of Homeland Security is a key partner 
in the Gulf Coast Workforce Development Initiative (GCWDI). Initiative 
team members closely coordinate their efforts with the regional 
representatives of the Office of the Federal Coordinator. To engage 
additional collaborative partners in the Initiative, it would be 
extremely beneficial for elected officials and federal agency personnel 
to reference the Initiative in meetings they attend regarding Gulf 
Coast reconstruction. The active support of the Department would 
further validate the Initiative in the eyes of potential partner 
organizations, which would, in turn, broaden our partner team and 
further the Initiative's reach.

    Question 2.: What is the role of the Office of the Federal 
Coordinator to the Gulf Coast Workforce Development Initiative?
    The Office of the Federal Coordinator provides the Initiative with 
key insights into government operations and contacts in government 
offices, which would otherwise be more complex. The office in New 
Orleans has been particularly helpful in connecting people, as well as 
addressing and working through many challenges the Initiative has 
encountered on the ground.

    Question 3.: The Roundtable's members contributed $5 million to the 
Initiative, but your member companies give more than $7 billion in 
total charity contributions. Have you all discussed increasing the 
amount of funding that your member companies contribute to the effort?
    Response: Business Roundtable prepared an extensive implementation 
plan prior to undertaking the GCWDI and believes that the current $5 
million contribution will be adequate to meet the Initiative's stated 
goal. While funding is important, the joining of federal, state, local 
and private sector efforts have delivered training to over 8,000 new 
trainees.

    Question 4.: Through the Initiative, workers receive training to 
prepare them to assist in rebuilding efforts. Do you think the training 
workers receive would provide a good basis for integrating them into a 
more permanent Civilian Disaster Recovery Corps through the Department?
    Response: It is not clear to Business Roundtable what the job 
duties would be for those individuals recruited to serve in the 
Civilian Disaster Recovery Corps. However, it is our expectation that 
the graduates of the GCWDI training program would not be prepared for 
these assignments. With additional, specialized training, Initiative 
graduates should be able to work in the Recovery Corps.

    Question 5.: Mr. Castellani, you also state in your testimony that 
through Business Roundtable's Partnership for Disaster Response Task 
Force you ensure that the private sector is fully integrated into the 
nation's disaster response planning. What steps have you taken to 
ensure the private sector's integration?
        a. In your opinion, what can the Department do to make these 
        efforts easier?
    Response: As part of our ongoing efforts to work more closely with 
the federal government, we have met over the past year with several 
representatives from DHS, FEMA and White House staff and co-hosted a 
meeting with Fran Townsend, the President's homeland security advisor, 
at the White House in December 2006 with more than a dozen CEOs.
    We would like to work more collaboratively with the Department on 
several issues moving forward, especially around improved 
communications both in advance and at the time of a disaster:
        (1) in advance of a disaster to better clarify what the 
        government needs so the business community can plan for how to 
        best contribute its resources and expertise; and
        (2) at the time of a disaster to understand how companies can 
        immediately aid in the relief effort (donations of products and 
        services) as well as overcome obstacles, such as credentialing 
        and clearances, to gain access to disaster sites.

    Question 6.: Mr. Castellani, the I'm GREAT program proposes to 
train 20,000 workers for the Gulf Coast rebuilding efforts. Is this a 
temporary program? Or do you plan on sustaining the program to address 
ongoing natural and man-made disasters?
    Response: Business Roundtable does not plan on playing an active 
role in sustaining the program after 2009, when the Initiative's 
original goals are met. However, the Roundtable has taken steps to 
ensure that the recruitment techniques, training work processes and job 
placement methods are freely available to both government and private 
industry for future use. It is our hope that the on-the-ground 
relationships and processes will remain intact and continue to expand 
in order to continue the development of the workforce in the Gulf Coast 
well in to the future.

    Question 7.: Will these newly trained workers be integrated into 
your member companies? If not, what is the plan for the workers after 
the rebuilding efforts are complete in the Gulf Coast region?
    Response: The GCWDI's assists training graduates with their 
employment search. The GCWDI actively works to engage local contractors 
with the program and trainees are predominantly employed by these 
contractors. Business Roundtable does not specifically recruit for its 
individual member companies.
    Both rebuilding efforts and new development are anticipated to 
continue in the region. Demand for construction professionals in the 
region is expected to continue to rise for the foreseeable future. The 
Initiative is providing trainees with the opportunity to take the first 
steps towards healthy, long-lasting careers in construction fields.

    Question 8.: You discussed the importance of broad support in 
recovery and rebuilding efforts. How closely are you working with labor 
organizations?
        a. How about institutions of higher education?
        b. How do you recruit individuals to participate in the 
        program?
    The GCWDI actively works with labor unions. Labor union 
representatives are invited to participate in Initiative meetings and 
activities. Additionally, a number of unions recruit training graduates 
for entry into their registered apprenticeship programs.
    Institutions of higher education in the Gulf Coast region are key 
partners in the Initiative. The majority of training is performed at 
local community and technical colleges.
    The Initiative has several means of recruitment through the ``I'm 
GREAT'' campaign. This campaign maintains a website (wwww.imgreat.org) 
and a 24/7 call center (888-52-GREAT) and uses a range of marketing 
methods including print media and radio advertising. Individuals who 
are interested in joining the construction industry and participating 
in the rebuilding of the Gulf Coast are directed to either the website 
or call center to get more information about training opportunities. 
They are then referred to a local community college or one-stop to 
enroll. We have also found that word of mouth and family/friend 
referrals are an effective method of recruitment.

    Question 9.: In your testimony, you stated that Business Roundtable 
works closely with the Department's Office of the Federal Coordinator. 
What should the Department do to ensure the ongoing success of programs 
like this Initiative?
    Response: The Department has done a good job of helping the 
Initiative make progress, particularly on the ground. They provided 
early guidance on the development of the Initiative's implementation 
plan, assisted the Initiative in establishing relationships with key 
government officials, and actively mentioned the Initiative in meetings 
dealing with Gulf rebuilding. This same level of engagement would be 
beneficial to similar public-private partnerships in the future.

    Question 10.: You stated in your testimony that the Initiative has 
benefited from Pathways to Construction and National Emergency grants. 
Have you also received funding from state and local governments?
    Response: The state of Louisiana has appropriated $15 million for 
workforce development, which has been instrumental in training 
successes to date.

    Question 11.: Please provide the Committee with the percentage of 
businesses you have been able to help. And the breakdown of small, 
minority and disadvantaged businesses assisted by your Initiative.
    Response: The focus of the Initiative is to recruit individuals for 
training who are in need of a steady career. Detailed demographics of 
the individuals trained under the U.S. Department of Labor's Pathways 
to Construction grants are reported by the U.S. D.O.L. Employment and 
Training Administration. However, the Initiative does not document this 
type of specific information on the employers who hire trainees.

 Questions from the Honorable Bennie G. Thompson, a Representative in 
                 Congress from the State of Mississippi

                     Responses from Bryan McDonald

    Question 1.: What can the Department do to better engage potential 
collaborative partners?
    Response: The Department of Homeland Security has taken steps, such 
as the Homeland Security Information Network, to better engage 
collaborative partners at the state and local level during times of 
normal readiness. Pre-disaster and during the response phase, we 
believe that it is important for the Department of Homeland Security to 
embed key personnel within state and local decision makers' operations 
centers to ensure real-time communications and collaborative 
interaction. During the post-disaster recovery phase, it remains 
important for the Department of Homeland Security to take proactive 
steps to ensure that staffing and resources are in place to quickly and 
efficiently perform all post-disaster functions, including Public 
Assistance closeout.
    Question 2.: In your testimony, you said that the state of 
Mississippi is requesting that FEMA meet a deadline for a staffing 
plan. Is your experience that state and local governments can provide 
critical support to Federal Government by being consistent eyes and 
ears to local issues?
    Response: During and after a disaster, State and local governments 
are on the lines and thus are able to provide valuable information and 
guidance to the Federal Government. The Federal Government, in all 
cases, should seek counsel and guidance the state when decisions are 
made that significantly affect state and local governments.

    Question 3.: You raise concerns that the local decisions made by 
FEMA may not carry weight throughout the agency. Will a stronger 
partnership between federal and state government address this issue?
    Response:Mississippi has maintained a strong partnership with the 
Federal Government throughout this disaster. In recognition of the 
strength of that partnership, we ask that FEMA Headquarters give 
deference to critical decisions made by local FEMA leadership and field 
personnel who worked closely with state and local officials while 
making those decisions. We believe it is important for decisions made 
by local FEMA leaders during the immediate post-disaster environment to 
be affirmed and upheld throughout the disaster recovery process. Such 
action on behalf serves to strengthen the partnership that already 
exists.

    Question 4.: You talked about the destruction of small business in 
Mississippi. How many of these businesses have been restored?
    Response: Due to the nature of the post-disaster environment in 
Mississippi, it is difficult to provide a precise number of the small 
businesses that have been restored. Many small businesses that received 
flood damage have relocated away from the waterfront, in some cases 
reopening in nearby cities and counties. Others small business owners 
have opened new businesses under different operating names. 
Additionally, a significant number of small businesses that did not 
exist before Hurricane Katrina have opened in the time since the 
disaster. The U.S. Small Business Administration reports in its 2006 
Small Business Profile for Mississippi that the state has an estimated 
total of 209,100 small businesses, up from 197,586 and 190,900 
respectively during the the previous two years. The SBA also reports 
net increases in the number of jobs associated with Mississippi firms 
with fewer than 500 employees.
    Question 5.: Are you actively engaged in the Initiative with 
Business Roundtable?
    Response: Yes, the State of Mississippi is actively engaged in the 
Business Roundtable's Gulf Coast Workforce Development Initiative. The 
Initiative has already launched training classes at several campuses in 
Mississippi and they are reporting high rates of job placement among 
their participants.

    Question 6.: You stated that several barriers to recovery still 
exist. What can the Department do to assist you in addressing these 
barriers?
    Response:The most important step the Department of Homeland 
Security can take to help remove the barriers to recovery that still 
exist is to assist the state with the issues outlined in my testimony, 
such as completion of the Public Assistance closeout process, 
completion of all outstanding project worksheets, FEMA headquarters' 
acceptance of critical decisions made by local FEMA leadership and 
field personnel in the weeks and months immediately following the 
disaster, and acceptance of the state's Global Match proposal. 
Additionally, the Department can assist in removing recovery barriers 
by committing to our proposed FEMA staffing plans, and helping to solve 
the issues surrounding reasonable cost standards.

    Question 7.: In your testimony, you raise a valid concern about 
whether FEMA staff will be prematurely removed from the Gulf Coast to 
meet the needs caused by another disaster. Do you think a civilian 
disaster corps within the Department may help address some of your 
concerns as they would not be regular employees of the Department?
    Response: The State of Mississippi hasn't had an opportunity to 
study any proposals associated with a Civilian Disaster Corps. However, 
we would certainly be open to learning more about any initiative that 
would provide for a sufficient level and quality of federal personnel 
to remain in place to satisfactorily close out this disaster.

    Question 8.: Mr. McDonald, as you know, there are some parts of 
Mississippi that have much farther to go in recovery efforts. What else 
can the Department do to assist in the rebuilding and recovery process, 
especially for those citizens who have been left behind?
    Response:The State of Mississippi is working tirelessly to ensure 
that sustainable recovery occurs throughout the state, and particularly 
in the parts of Mississippi that bore the brunt of the storm. Likewise, 
we are working collaboratively with our federal, private sector, 
foundation, non-profit and faith-based partners to ensure that no 
citizens are left behind. The Department of Homeland Security can 
assist us in this effort by maintaining and strengthening the spirit of 
cooperation that exists among us. As the Department of Homeland 
Security continues to help us remove the barriers to recovery that 
still exist, Mississippi will have the tools it needs to continue to be 
a model for post-disaster recovery. We understand that our work to 
recover, rebuild, and renew will take years. We ask for the Department 
of Homeland Security's continued assistance in helping us move forward.

                                 <all>

</pre></body></html>
